<html>
<title> - HEARING TO REVIEW THE U.S. FOREST SERVICE'S PROPOSED FOREST PLANNING RULE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                   HEARING TO REVIEW THE U.S. FOREST
                SERVICE'S PROPOSED FOREST PLANNING RULE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, ENERGY,
                              AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2011

                               __________

                           Serial No. 112-15



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-438 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
TIMOTHY V. JOHNSON, Illinois         TIM HOLDEN, Pennsylvania
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              LEONARD L. BOSWELL, Iowa
K. MICHAEL CONAWAY, Texas            JOE BACA, California
JEFF FORTENBERRY, Nebraska           DENNIS A. CARDOZA, California
JEAN SCHMIDT, Ohio                   DAVID SCOTT, Georgia
GLENN THOMPSON, Pennsylvania         HENRY CUELLAR, Texas
THOMAS J. ROONEY, Florida            JIM COSTA, California
MARLIN A. STUTZMAN, Indiana          TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
AUSTIN SCOTT, Georgia                LARRY KISSELL, North Carolina
STEPHEN LEE FINCHER, Tennessee       WILLIAM L. OWENS, New York
SCOTT R. TIPTON, Colorado            CHELLIE PINGREE, Maine
STEVE SOUTHERLAND II, Florida        JOE COURTNEY, Connecticut
ERIC A. ``RICK'' CRAWFORD, Arkansas  PETER WELCH, Vermont
MARTHA ROBY, Alabama                 MARCIA L. FUDGE, Ohio
TIM HUELSKAMP, Kansas                GREGORIO KILILI CAMACHO SABLAN, 
SCOTT DesJARLAIS, Tennessee          Northern Mariana Islands
RENEE L. ELLMERS, North Carolina     TERRI A. SEWELL, Alabama
CHRISTOPHER P. GIBSON, New York      JAMES P. McGOVERN, Massachusetts
RANDY HULTGREN, Illinois
VICKY HARTZLER, Missouri
ROBERT T. SCHILLING, Illinois
REID J. RIBBLE, Wisconsin

                                 ______

                           Professional Staff

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

           Subcommittee on Conservation, Energy, and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

BOB GOODLATTE, Virginia              TIM HOLDEN, Pennsylvania, Ranking 
MARLIN A. STUTZMAN, Indiana          Minority Member
BOB GIBBS, Ohio                      KURT SCHRADER, Oregon
STEPHEN LEE FINCHER, Tennessee       WILLIAM L. OWENS, New York
SCOTT R. TIPTON, Colorado            MIKE McINTYRE, North Carolina
STEVE SOUTHERLAND II, Florida        JIM COSTA, California
MARTHA ROBY, Alabama                 TIMOTHY J. WALZ, Minnesota
TIM HUELSKAMP, Kansas                CHELLIE PINGREE, Maine
RANDY HULTGREN, Illinois             MARCIA L. FUDGE, Ohio
REID J. RIBBLE, Wisconsin            GREGORIO KILILI CAMACHO SABLAN, 
                                     Northern Mariana Islands

               Brent Blevins, Subcommittee Staff Director

                                  (ii)














                             C O N T E N T S

                              ----------                              
                                                                   Page
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     4
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     3
    Submitted letter.............................................    61

                               Witnesses

Sherman, Hon. Harris, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture, Washington, D.C...     5
    Prepared statement...........................................     7
    Submitted questions..........................................    62
Bortz, Jr., John R., Commissioner, Warren County, Pennsylvania, 
  Warren, PA.....................................................    26
    Prepared statement...........................................    27
Guthrie, Steve, Woodlands Manager, Nicolet Hardwoods Corporation, 
  Laona, WI; on behalf of Lakes States Lumber Association; 
  Hardwood Federation............................................    37
    Prepared statement...........................................    38
Shannon, John T., Vice President, National Association of State 
  Foresters; Forester, State of Arkansas, Little Rock, AR........    40
    Prepared statement...........................................    41
Terrell, Jack, Senior Project Coordinator, National Off-Highway 
  Vehicle Conservation Council, Auburndale, FL...................    44
    Prepared statement...........................................    45

 
                   HEARING TO REVIEW THE U.S. FOREST
                SERVICE'S PROPOSED FOREST PLANNING RULE

                              ----------                              


                         THURSDAY, MAY 5, 2011

                  House of Representatives,
        Subcommittee on Conservation, Energy, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 1300, Longworth House Office Building, Hon. Glenn Thompson 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Goodlatte, 
Tipton, Southerland, Huelskamp, Hultgren, Ribble, Holden, 
Schrader, Owens, McIntyre, and Fudge.
    Staff present: Brent Blevins, Tamara Hinton, John Konya, 
Debbie Smith, Heather Vaughn, Nona S. Darrell, Liz Friedlander, 
Lisa Shelton, and Jamie Mitchell.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. Good morning. The Subcommittee on 
Conservation, Energy, and Forestry public hearing to review the 
U.S. Forest Service's proposed forest planning rule will come 
to order.
    I will take the liberty of offering my opening statement.
    I really do want to welcome everybody to this hearing. For 
those who don't work in the agriculture community, forestry 
perhaps is not recognized as a crucial component of 
agriculture, but it certainly is. Forestry and the forest 
products industry contribute hundreds of thousands of jobs 
across the country, resulting in billions of dollars of 
productivity to the economy.
    Forestry and timber harvesting also provide significant 
environmental benefits, because these activities are critically 
important to maintaining the health of the forest lands. Now, 
without active management of our National Forests and public 
lands, government costs would increase in the long run.
    Indeed, forestry is one of the most important economic 
engines in Pennsylvania, particularly throughout my district. 
My district is heavily forested and contains the Allegheny 
National Forest, which consists of more than half a million 
acres. Now, the Allegheny operates successfully for multiple 
purposes, including recreation, timber harvesting, and oil and 
gas development.
    Nationwide, the U.S. Forest Service has 155 National 
Forests that consist of 193 million acres in 46 states across 
the country.
    And the purpose of this hearing is to examine the proposed 
forest rule. Now, this rule was released in February, and the 
comment period ends May 16th. Now, I believe it is critically 
important that we now hear from the Administration about what 
went into crafting this rule, and to hear from groups who would 
be most affected by its implementation.
    Now, we are at this point in the process because two 
previous attempts to promulgate a rule in the last 6 years were 
thrown out by the Federal court. Now, this has resulted in our 
National Forests operating under a rule that is 30 years old.
    I understand the significant impact that forest action or 
inaction, as the case may be, can have on America's rural 
population. I am concerned that our National Forests are not 
being managed in the best possible manner. I believe our 
forests should be actively managed so we are better equipped to 
deal with the threats of natural disasters, fires, and invasive 
species.
    Our National Forests should also be a prime source of 
timber, a reason for which the forests were actually formed, a 
source of timber that everyone can be assured is harvested in a 
responsible manner. Indeed, the rule makes reference to climate 
change. If this is an important issue, I can think of nothing 
more effective than taking care of our forests and harvesting a 
sustainable amount of trees.
    Some have embraced the ideology that preventing human 
access to these lands is the best way to keep our forests 
healthy. I disagree. I think the opposite is true: Maintaining 
the land yields forest health. Younger trees can sequester more 
carbon, and we can ensure that older trees do not emit carbon 
as they rot due to lack of harvesting. Further, the removal of 
decaying materials on the forest floor helps generate renewable 
biofuels.
    People often forget that the Forest Service is part of the 
Agriculture Department rather than Department of the Interior. 
I believe there are some people who confuse National Forests 
with national parks. But now is a good time to remind everyone 
that Congress, through legislation over decades, recognized 
that our National Forests serve many different functions, 
production of our natural resources being one of them and, I 
believe, primary.
    Energy exploration is one of the key issues for forest 
management. I see firsthand in northwestern Pennsylvania the 
positive impact that the production of our natural resources 
within our National Forests can have on a community. In 
addition to encouraging oil and natural gas production, we must 
do a better job of utilizing woody biomass from our forests. 
There is a clean, renewable, and easily utilized source of 
energy that can be used in our rural communities.
    Now, as we confront high energy prices, it is important 
that we explore energy from all types of sources, particularly 
where we can on our Federal lands. With that in mind, I am 
concerned that this proposed planning rule is complex and will 
face the same sort of litigation that has hamstrung previous 
attempts to formulate a rule.
    Now, I want to thank you for being here, Under Secretary 
Sherman. I very much appreciate it. I look forward to hearing 
how this rule will be different from previous planning rules 
and the process by which it was formulated. I also look forward 
to hearing how this rule will improve the health and the well-
being of our National Forests.
    And I certainly would welcome our second panel of 
witnesses. They will share with us their concerns about the 
plan, how it will affect everyday people, and, always, how we 
can improve the rule.
    And, finally, I certainly want to take the opportunity to 
offer a warm welcome to a constituent of mine, John Bortz. Mr. 
Bortz is Commissioner from Warren County that contains about 
\1/4\ of the land mass of the Allegheny National Forest. And 
Mr. Bortz is all too familiar with the importance of the 
management of our natural resources in rural areas, and the 
great impact that they can have on the livelihoods of these 
communities.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning. I want to welcome everyone to this hearing to review 
the U.S. Forest Service's proposed Forest Planning rule.
    For those who don't work in the agriculture community, forestry 
perhaps is not as recognized as a crucial component of this field.
    Forestry and the forest products industry contribute hundreds of 
thousands of jobs across the country resulting in billions of dollars 
of productivity to the economy.
    Forestry and timber harvesting also provide significant 
environmental benefits--because these activities are critically 
important to maintaining the health of forest lands.
    Without active management of our National Forests and public lands, 
government costs would increase in the long run.
    Indeed, forestry is one of the most important economic engines in 
Pennsylvania, particularly throughout my district.
    My district is heavily forested and contains the Allegheny National 
Forest, which consists of more than \1/2\ million acres.
    The Allegheny operates successfully for multiple purposes including 
recreation, timber harvesting, and oil and gas development.
    Nationwide, the U.S. Forest Service has 155 National Forests that 
consist of 193 million acres, in 46 states across the country.
    The purpose of this hearing is to examine the Proposed Forest Rule.
    This rule was released in February and the public comment period 
ends May 16th.
    I believe it is critically important that we now hear from the 
Administration about what went into crafting this rule, and to hear 
from groups that would be most affected by its implementation.
    We are at this point in the process because two previous attempts 
to promulgate a rule in the last 6 years have been thrown out by 
federal court.
    This has resulted in our National Forests operating under a rule 
that is 30 years old.
    I understand the significant impact that Forest Service action--or 
inaction as the case may be--can have on America's rural population.
    I am concerned that our National Forests are not being managed in 
the best possible manner.
    I believe our forests should be actively managed, so we are better 
equipped to deal with the threats of natural disasters, fire and 
invasive species.
    Our National Forests should also be a prime source of timber, a 
source of timber that everyone can be assured is harvested in a 
responsible manner.
    Indeed, the rule makes reference to climate change. If this is an 
important issue, I can think of nothing more effective than taking care 
of our forests and harvesting a sustainable amount of trees.
    Some have embraced the ideology that preventing human access to 
these lands is the best way to keep our forests healthy.
    However, the opposite is true: maintaining the land yields forest 
health.
    Younger trees can sequester more carbon, and we can ensure that 
older trees do not emit carbon as they rot due to a lack of harvesting.
    And further, the removal of decaying materials on the forest floor 
helps generate renewable biofuels.
    People often forget that the Forest Service is part of the 
Agriculture Department--rather the Department of the Interior--because 
National Forests were meant for multiple uses.
    Now is a good time to remind everyone that Congress, through 
legislation over decades recognized that our National Forests serve 
many different functions; production of our natural resources being one 
of them.
    Energy exploration is one of the key issues for forest management. 
I see firsthand in northwestern Pennsylvania the positive impact that 
the production of our natural resources within our National Forests can 
have on a community.
    In addition to encouraging oil and natural gas production, we must 
do a better job of utilizing woody biomass from our forests. This is a 
clean, renewable and easily utilized source of energy that can be used 
in our rural communities.
    As we confront high energy prices, it is important that we explore 
energy from all types of sources, particularly where we can on our 
Federal lands.
    With that in mind, I am concerned that this Proposed Planning Rule 
is complex and will face the same sort of litigation that has hamstrung 
previous attempts to formulate a rule.
    Thank you for being here, Under Secretary Sherman. I look forward 
to hearing how this rule will be different than previous planning rules 
and the process by which it was formulated.
    I also look forward to hearing how this rule will improve the 
health and well-being of our National Forests.
    I welcome our second panel of witnesses. They will share with us 
their concerns about the plan, how it will affect everyday people, and 
ways we can improve the rule.
    Finally, I want to welcome a constituent of mine, John Bortz. Mr. 
Bortz is a commissioner in Warren County, which contains about \1/4\ of 
the landmass of the Allegheny National Forest.
    Mr. Bortz is all too familiar with the importance of the management 
of our National Forests on rural areas and the great impact they can 
have on the livelihood of these communities.
    I now yield to the gentleman from Pennsylvania, Mr. Holden, for his 
opening statement.

    The Chairman. I now yield to my friend, the gentleman from 
Pennsylvania, Mr. Holden, for his opening statement as Ranking 
Member.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    Mr. Holden. Thank you, Mr. Chairman.
    I would also like to thank our witnesses and guests for 
coming today to discuss the U.S. Forest Service's planning 
rule. This hearing not only presents an opportunity for Members 
of the Subcommittee to review the proposed rule, but also an 
opportunity for many here, myself included, to get better 
acquainted with the national framework for forestland 
management in the 155 National Forests and the 20 grasslands in 
the National Forest system.
    As a newly added jurisdiction to this Subcommittee, I look 
forward to learning more about forestry from the U.S. Forest 
Service and our other distinguished witnesses, as well as 
Chairman Thompson and Congressman Schrader and others who 
represent Congressional districts that are home to much of our 
National Forest land.
    The National Forest Management Act established standards 
for how the Forest Service is to manage our National Forests 
and develop and implement land management practices. The last 
major action on the NFMA was nearly 30 years ago in 1982. While 
there have been several attempts to update this Act in recent 
years, litigation and negative feedback has continually stalled 
the process.
    These false starts are not good for our forests, and the 
status quo is not adequate. We need to make sure the Forest 
Service and its partners work together to ensure the viability 
of our forestland and the forest communities in the 21st 
century.
    This should be a commonsense rule based on sound science 
and void of over-burdensome sustainability requirements. It 
needs to take into account the multiple uses of our National 
Forest land, including timber production, habitat preservation, 
natural resource management, and recreation, and ensure local 
economic development and environmental protections work in 
harmony instead of in competition with each other.
    A new rule must also be flexible and allow for management 
decisions based on the specific needs of local communities. 
Public input from all involved parties, a few of which are 
represented by our panelists today, will be critical to 
ensuring a reasonable and workable approach to forestland 
management.
    I look forward to today's expert testimony and the 
opportunity to listen, learn, and question those on the 
forefront of this very important issue.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Holden.
    The chair will request that other Members submit their 
opening statements for the record so witnesses may begin their 
testimony, and ensure that there is ample time for questions.
    And it is very much an honor to welcome the witness that 
will be on our first panel, the Honorable Harris Sherman, Under 
Secretary for Natural Resources and Environment, the U.S. 
Department of Agriculture.
    And, Mr. Secretary, we are honored to have you before the 
Committee this morning. I look forward to your testimony.

 STATEMENT OF HON. HARRIS SHERMAN, UNDER SECRETARY FOR NATURAL 
                RESOURCES AND ENVIRONMENT, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Sherman. Mr. Chairman, thank you very much. I am Harris 
Sherman, the Under Secretary at USDA for Natural Resources and 
the Environment. We appreciate the opportunity to be here today 
to explain the proposed national planning rule.
    And I must say, your timing could not be better because we 
are in the midst of our public comment period, which will end 
on May the 16th. And so, this discussion today will be very 
useful and very helpful to us as we move toward a final rule.
    I thought it would be helpful to put the proposed rule into 
context. The Forest Service oversees 193 million acres of land. 
That is about eight to nine percent of the land mass of the 
United States. It is comprised of 155 National Forests, 20 
grasslands, and one national prairie.
    Based on the national planning rule, over time, each of 
these National Forests will prepare an individual forest plan, 
and those forest plans will govern the future actions that can 
occur on those National Forests. So the national planning rule 
is the template for all future forest plans, which, in turn, 
provide direction that occurs on the ground.
    What we are attempting to do here is to establish a new 
rule that is effective, it addresses the challenges and the 
needs of our National Forests, it is modern, it is efficient, 
and it will serve the public well.
    To that end, over the past 18 months, we have reached out 
to our stakeholders, to members of the public, to our agency 
professionals, to try to put together a bottom-up new national 
planning rule. We have had about 40 meetings before we came out 
with a draft rule. Some 3,000 people attended these sessions. 
We received 26,000 comments concerning what we should do with 
this national rule. And, from that, we formulated the draft 
that you have in front of you.*
---------------------------------------------------------------------------
    * The draft planning rule can be accessed at http://www.gpo.gov/
fdsys/pkg/FR-2011-02-14/pdf/2011-2989.pdf.
---------------------------------------------------------------------------
    We released that draft, and, since releasing it, we have 
had another 27 meetings around the country to explain it to 
those who were interested. That has appeared in 75 different 
venues by virtue of video streams. And we now are proceeding to 
hopefully finalize this before the end of the calendar year.
    We believe that the draft rule addresses the most important 
issues facing the Forest Service. The draft rule has strong 
support from professionals within the Forest Service, including 
those who have been working on planning issues for decades. And 
we have tried to incorporate the best examples, the best 
practices that we have learned over the years.
    Our goal is to finalize a rule that will last for several 
decades, because we believe strongly that the public and our 
stakeholders and the agency deserve a stable, lasting, and 
predictable planning rule. And we of course look forward to 
hearing from the public as we move now to this final stage.
    I want to briefly explain what the overriding goal of the 
planning rule is. It is really to principally restore the 
health and the resiliency of our National Forests. A 
significant portion of the 193 million acres is in serious need 
of restoration. Disease and pests are impacting huge swaths of 
our National Forests. In the West alone, some 40 million acres 
of dead trees are the result of a bark beetle epidemic, and 
that number is growing.
    We are seeing more frequent, larger, intense fires. The 
consequences of fires and unhealthy forests have significant 
impacts to our water resources. I think people don't realize 
sometimes that 66 million Americans get their water from our 
National Forests.
    There are many positive benefits that our National Forests 
provide and this planning rule needs to address them. We need 
to help foster recreation on our National Forests. Last year, 
we had 173 million visits. That resulted in 250,000 jobs. These 
visits are dependent upon healthy and resilient forests which 
are safe to recreate in. And it doesn't matter whether you are 
talking about managed recreation, such as ski areas, or you are 
talking about cross-country skiing or hiking, these forests 
need to be safe to recreate in.
    Our forests support a wide variety of multiple uses, 
including timber, grazing, renewable and nonrenewable energy 
development. These opportunities create jobs and they create 
stability and opportunity for our rural communities. Timber 
production not only creates jobs and not only provides for 
rural stability, but it is essential that we have a healthy 
industry to conduct the restoration efforts that we need to do 
all over this country.
    So we have proposed a plan which we believe is adaptive and 
nimble to current conditions, where we will monitor our 
results, and, where necessary, we will make appropriate 
amendments and adjustments to what we are doing.
    We believe this is a 21st century approach. We have built 
in a collaborative process where the public and our 
stakeholders can fully participate. We believe it is a strong 
proposal, and we are anxious to hear from the public through 
the May 16th comment deadline so we can move to finalize this 
rule.
    So, Mr. Chairman, thank you for the opportunity of being 
here, and I look forward to answering your questions.
    [The prepared statement of Mr. Sherman follows:]

Prepared Statement of Hon. Harris Sherman, Under Secretary for Natural 
Resources and Environment, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department's view 
on the U.S. Department of Agriculture Forest Service's proposed 
planning rule, published on February 14, 2011. We appreciate the 
Subcommittee's interest in a matter of great import to the agency and 
Department.
    The timing of this hearing could not be better, coming in the midst 
of a 90 day public comment period on the proposed planning rule that 
runs through May 16, 2011. Our intent is to issue a final planning rule 
by the end of this year.
    In the 193 million acres of forests, grasslands and prairies that 
make up our National Forest System (NFS), the citizens of the United 
States are blessed with some of the most diverse, beautiful, and 
productive landscapes and watersheds on the planet. As required by the 
National Forest Management Act of 1976 (NFMA), land management plans 
for each forest and grassland provide a framework for integrated 
resource management and guide project and activity decision-making on a 
unit. The planning rule provides the overarching framework for 
individual NFS units to use in developing, amending, and revising land 
management plans to maintain, protect, and restore NFS lands while 
providing for sustainable multiple uses.
Planning Rule History
    Currently, the agency is using the procedures of a planning rule 
developed in 1982, which has guided the creation of every land 
management plan, revision or amendment to date. However, over the past 
thirty years, much has changed in our understanding of how to create 
and implement effective land management plans, and in our understanding 
of science and the land management challenges facing Forest 
Supervisors. Ecological, social, and economic conditions across the 
landscape have altered. New best practices and scientific methods have 
evolved. And so has the country's understanding of and vision for the 
multiple uses, values, and benefits provided by NFS lands.
    Additionally, developing land and resource management plans using 
1982 rule procedures is often time consuming, costly and cumbersome. 
Because of this, units often wait until circumstances require a 
complete overhaul rather than update plans more incrementally as 
conditions change. This can result in a drawn-out, difficult, and 
costly revision process and has made it challenging for units to keep 
plans current and relevant. Of the 127 land management plans for NFS 
lands, sixty-eight are past due for revision, meaning that they are 
fifteen years old or more.
    Beginning as early as 1989, the Department and Forest Service have 
made numerous attempts to review, revise and modernize the planning 
rule. After two proposals in the 1990s, a final rule was published in 
2000 to replace the 1982 regulations, but the 2000 rule was challenged 
in court, and an internal review concluded that the number and 
specificity of its requirements were beyond the agency's fiscal and 
organizational capacity to successfully implement. A new planning rule 
was developed and published in 2005, and a revised version in 2008, but 
each of those rules was held invalid by a Federal District Court on 
grounds that it violated National Environmental Policy Act requirements 
for analyzing environmental impacts, among other findings. In 2009, the 
court's decision brought the 2000 rule back into effect. The Forest 
Service is utilizing the transition provisions from the 2000 rule for 
plan revisions and amendments pending finalization of a new rule. These 
transition provisions allow for use of the procedures from the 1982 
rule.
    The instability created by the history of the planning rule has had 
a significant negative impact on the Forest Service's ability to manage 
the NFS and on its relationship with the public. At the same time, the 
vastly different context for management and improved understanding of 
science and sustainability that has evolved over the past 3 decades 
creates an urgent need for a meaningful, durable, and implementable 
21st Century planning framework that allows the agency to respond to 
new challenges and management objectives for NFS lands.
Collaboration and Public Participation
    Because of the planning rule's history and the high degree of 
interest in management of the NFS, the Department and Forest Service 
decided to take a different approach to developing the 2011 proposed 
planning rule. We strongly believe that involving the public through a 
participatory, open, and meaningful process is the best way to develop 
this new planning rule. Our goal has been to learn from the previous 
efforts, and listen to input from the public, agency employees, other 
governmental representatives, and internal and external scientists to 
develop a proposal for additional public feedback. As a result, the 
proposed rule now out for public comment is the product of the most 
participatory and transparent planning rule development process in 
Forest Service history.
    The development of the proposed rule was informed by 26,000 public 
comments made on the Notice of Intent (NOI); a Science Forum with panel 
discussions from 21 scientists; regional and national roundtables held 
in over 35 locations and attended by over 3,000 people; regional and 
national roundtables and 16 government-to-government consultations with 
Tribes; and over 300 comments on a planning rule blog developed to 
reach people online. The agency and Department also reviewed previous 
rules and planning reviews, current science, and best practices being 
implemented on NFS lands; worked closely with other agencies; and 
actively engaged and sought feedback from Forest Service employees.
    Since the proposed rule was published in February, we have also 
taken the unprecedented step of hosting another series of meetings to 
provide stakeholders with information about the proposal in order to 
help inform their comments on the proposed rule and the Draft 
Environmental Impact Statement (DEIS). We held 29 national and regional 
public forums that were attended by over 1,300 people. Some of these 
were presented through video teleconferencing, reaching 74 locations 
across the country in all.
    The Department and Forest Service believe that our approach and 
commitment to meaningful public engagement sets a new standard for 
public land management, and we are continually learning as we travel 
this path. Above all else, as we see so many people take the time to 
come out to workshops on their local units, participate via the 
Internet, or submit comments, we are gratified to see once more how 
people truly cherish their National Forests and Grasslands and care 
deeply about their management.
Proposed Rule
    The Department and Forest Service used the input we received 
through our planning process to develop the proposed rule and DEIS now 
out for public comment. The proposed rule provides a framework for 
planning in order to sustain and restore the health and resilience of 
our National Forests. The goal is to guide management of NFS lands so 
that they are ecologically sustainable and contribute to social and 
economic sustainability, with resilient ecosystems and watersheds, 
diverse plant and animal communities, and the capacity to provide 
people and communities with a range of social, economic, and ecological 
benefits now and for future generations.
    The planning framework in the proposed rule will help the agency to 
provide clean water, habitat for diverse fish, wildlife, and plant 
communities, opportunities for sustainable recreation and access, and a 
broad array of other multiple uses of NFS lands, including for timber, 
rangeland, minerals and energy as well as hunting and fishing, 
wilderness, and cultural uses.
    The proposed rule emphasizes integrated resource management so that 
all relevant elements of the system are considered as a whole, instead 
of as separate resources or uses. The proposed rule includes 
requirements to sustain and restore the health and resilience of our 
National Forests and watersheds. There is a strong emphasis on 
protecting and enhancing water resources, including important sources 
of drinking water for downstream communities.
    The proposed rule includes requirements to provide for diversity of 
plant and animal communities, and is designed to provide habitat to 
keep common native species common, contribute to the recovery of 
threatened and endangered species, conserve candidate species, and 
protect species of conservation concern.
    The proposed rule includes requirements to contribute to social and 
economic sustainability. Plans would be required to provide for 
sustainable recreation, and to protect cultural and historic resources. 
Planning would consider and provide for a suite of multiple uses, 
including ecosystem services, watershed, wildlife and fish, wilderness, 
outdoor recreation, energy, minerals, range, and timber, to the extent 
relevant to the plan area. Plans would also guide the management of 
timber harvest on NFS lands.
    The proposed rule creates a framework that would allow adaptive 
land management planning in the face of climate change, and each phase 
of the framework addresses climate change.
    The proposed rule creates a more efficient and effective planning 
process through an adaptive framework of land management assessment, 
planning and monitoring. This framework would allow Forest Supervisors 
to adapt plans to reflect new information and changing conditions. 
Information developed in each phase will inform the public and feed 
into the next phase, building a strong base of information and public 
input that will support a shared understanding of and vision for the 
landscape. Responsible officials will then be able to using monitoring 
data and other sources of information to amend plans and keep them 
current and effective.
    The proposed rule strengthens public engagement throughout the 
planning process, specifying numerous opportunities for meaningful 
dialogue and input. Responsible officials would be required to seek 
input from the public, consult with Tribes, encourage participation by 
youth, low-income populations, minority groups, and affected private 
landowners, and seek input from and coordinate with related planning 
efforts by other government entities including Tribes, states, 
counties, local governments, and other Federal agencies.
    The proposed rule requires taking into account the most accurate, 
reliable, and relevant scientific information available in order for 
responsible officials to make informed decisions during the planning 
process. The appropriate interpretation and application of science 
provides the foundation for planning, with other forms of information, 
such as local and indigenous knowledge, public input, agency policies, 
results of monitoring, and the experience of land managers also taken 
into account in determining how to accomplish desired outcomes.
    The proposed rule creates a strategy for monitoring at the unit 
level and at a broader scale. Monitoring would be a central part of 
both plan content and the planning process, allowing responsible 
officials to test assumptions, track changing conditions, measure 
effectiveness in achieving desired outcomes, and feed new information 
back into the planning cycle so that plans and management can be 
changed as needed.
    The proposed rule also requires that NFS lands be managed in the 
context of the broader landscape. While the proposed rule explicitly 
reaffirms that the Forest Service does not intend to and cannot direct 
management of lands outside the NFS, responsible officials would use 
assessments, monitoring and public engagement to create a continually 
evolving understanding of conditions, trends, and stressors both on and 
off NFS lands, and would work in the planning phase to respond to 
changing conditions across the landscape, and coordinate, where 
appropriate and practicable, with other land managers and owners to 
accomplish shared objectives.
Conclusion
    The proposed rule seeks to create framework that will allow the 
Department and Forest Service to more effectively restore and protect 
our natural resources, support communities, and adapt to changing 
conditions. It represents our desire to create a modern planning rule 
based on science, public input, and agency experience.
    Management of America's 193 million acres of National Forests, 
grasslands and prairies is enormously important as we work to win the 
future for the next generation. This Administration's goal is to 
collaboratively develop a meaningful and enduring planning rule and a 
more efficient, effective, and participatory land management planning 
process.
    The proposed rule and DEIS are currently out for public comment. 
The Department and Forest Service are eager to receive feedback from 
the public by the end of the comment period, and look forward to 
reviewing that input in order to develop a final rule that is 
practical, workable, and reflective of our shared values and vision for 
America's National Forest System.
    This concludes my prepared statement, and I would be pleased to 
answer any questions you may have.

    The Chairman. Thank you, Mr. Secretary. We appreciate it.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in the order of their arrival. And I 
appreciate Members' understanding.
    I intend to reserve my time for questions, and I would like 
to recognize the gentleman from Virginia, Mr. Goodlatte, for 5 
minutes for questions.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. I very much 
appreciate your holding this hearing. Forestry is a very 
important part of the economy of western Virginia, and my 
Congressional district contains about 1.2 million acres of 
National Forest land, so we are very interested in the topic.
    And, Mr. Sherman, we very much appreciate your coming to be 
with us today.
    I wonder if you could explain why the proposed rule does 
not do more to promote timber harvesting on our National 
Forests?
    It seems to me it is a win for everyone. It is harvested in 
an environmentally sound manner. It promotes forest health by 
controlling for fire threats and invasive species. And it not 
only benefits but, in many cases, it is vitally important for 
these rural economies, the small towns that are dotted in and 
around our National Forests that have suffered greatly by the 
significant reduction in recent decades in harvesting in our 
National Forests. In my opinion, it is good both for the 
environment and the economy.
    Mr. Sherman. Congressman, we believe the proposed planning 
rule does address timber and the importance of timber. Timber 
is a key multiple use, and multiple uses are expressly 
recognized in this proposed planning rule. Multiple uses are 
obviously critical to furthering ecological----
    Mr. Goodlatte. Do you anticipate there will be an increased 
production of timber off of our National Forest lands as a 
result of this rule?
    Mr. Sherman. I think that we will continue to see an upward 
effort to produce timber on our National Forests.
    Mr. Goodlatte. Do you have any projections in terms of how 
that will go?
    Mr. Sherman. I don't have a specific projection. I know 
this past year, in the President's budget, we projected a 
slight increase in production of our timber.
    But I want to just say that this rule contains sections 
that relate to timber production. It identifies how we are 
going to identify lands that are suitable for timber 
production----
    Mr. Goodlatte. I understand that. Let me interrupt because 
I have a couple other questions I want to ask. But if you could 
provide the Committee with some projections showing where 
timber production has been and where you expect it would go, I 
think that would be very helpful to all the Members of the 
Committee.
    I represent the George Washington National Forest and the 
Jefferson National Forest in western Virginia. The George 
Washington is currently operating under a plan crafted in 1993. 
The process to revise the plan began in 2007 and, when all is 
said and done, will have taken about 5 years to complete.
    I understand that there was a court ruling that invalidated 
the previous rule, but what assurance can you give me that 
future rulemaking will not drag on in the same manner?
    Mr. Sherman. We are hopeful that the adaptive process that 
this rule is based on will result in new revised plans being 
done much quicker than the previous rule.
    The previous rule, took, on average, 5 to 8 years to 
complete forest plans. And some took more than that. We are 
hopeful through the process that we have outlined here that new 
revised plans can be prepared in 1 to 3 years. That is our 
hope.
    We have studied this greatly. This is a process where we 
are going to be doing more frequent amendments rather than 
waiting until the end of a 15 year period to revise a forest 
plan----
    Mr. Goodlatte. That would be a good goal and a good 
process.
    One of the issues that comes up here is litigation, and I 
wonder what the Forest Service is doing. Are you taking any 
proactive steps to attempt to head off litigation with regard 
to this rule?
    Mr. Sherman. We have worked carefully with our legal 
consultants on the formulation of this rule. We have studied 
extensively past litigation, past court decisions. And we 
believe that we have structured this rule and phrased this rule 
in a way that will withstand litigation. Obviously, you can't 
determine whether somebody will sue you or not. But if are 
sued, we believe that this is a rule that is defensible and 
that, as I said, will withstand challenge.
    Mr. Goodlatte. And, finally, one last question: Can you 
discuss the decision to catalog invertebrates on National 
Forest land, primarily insects? This seems like a burdensome 
requirement on Forest Service personnel that has only marginal 
benefit.
    Mr. Sherman. The 1976 National Forest Management Act 
required us to come up with a forest plan that addressed plants 
and animals. It didn't say vertebrates; it said plants and 
animals. Animals include, obviously, vertebrates and 
invertebrates.
    We believe it is a much more holistic and responsible way 
to look at both invertebrates and vertebrates, because they are 
absolutely part of these ecosystems that we are trying to 
protect.
    Mr. Goodlatte. Have you taken a look at what this is going 
to cost and what it is going to do to deter limited forest 
personnel from being able to do other duties in our National 
Forests?
    Mr. Sherman. We have evaluated what it will take to 
incorporate our review of invertebrates along with vertebrates. 
Again, we are not going out and doing original research or 
study on these issues; we are taking information that is 
available to us. But when you are looking at these issues, you 
need to look at them in a holistic way. Otherwise, we are not 
understanding what is really happening to the ecosystem.
    So we have reviewed this carefully, we have talked within 
the agency about this, and we believe we can perform these 
types of reviews efficiently and effectively.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I now recognize the Ranking Member, Mr. Holden, for 5 
minutes of questions.
    Mr. Holden. Thank you, Mr. Chairman.
    Mr. Schrader has a prior commitment, so I am going to give 
my time to him for the first 5 minutes.
    Mr. Schrader. Thank you, Ranking Member and Mr. Chairman.
    I am very concerned about the proposed forest rules and the 
evolution of the Forest Service into a hybrid of the National 
Park Service and U.S. Fish and Wildlife. I think the original 
mission of Forest Service has completely been lost in a lot of 
the iterations of rules and regulations that have been written 
over the last 20 years.
    Unlike Mr. Goodlatte, I don't have a forest industry hardly 
anymore, despite the fact that half of my land mass in Oregon 
is Federal forest land and BLM. So it is a great concern, 
looking at some of these guidelines that are out there.
    As a matter of fact, could you comment in a little more 
detail about the so-called viability rule? I share the concern 
about looking at invertebrates. I mean, basic science would 
tell you that if the higher-chain vertebrates are living, that 
the invertebrates they depend on and that ecosystem depend on 
are probably in good shape.
    And you obviously don't have the resources to manage what 
you do do now, much less expand your mission. So, given the 
fact that the law calls for diversity, not viability, why are 
you changing the law?
    Mr. Sherman. Congressman, I don't believe we are changing 
the law. I think we are following----
    Mr. Schrader. Well, you obviously are. You indicated just a 
moment ago you are expanding it into invertebrates, when the 
law itself calls for plants and animals.
    Mr. Sherman. Well, the 1976 Forest Management Act requires 
us to provide for animal and plant diversity. And----
    Mr. Schrader. So it says diversity, not viability; is that 
correct?
    Mr. Sherman. Well, it says diversity. And----
    Mr. Schrader. Okay.
    The other thing I am concerned about is the multiple use 
standard. You have talked about economic viability, yet you 
were unable to give even a remotely close estimate of what is 
going to happen to the towns and the timber harvest that a lot 
of rural America depends on.
    They have been in a depression for almost 20 years. If we 
are interested in helping them, how and in what way do you 
address that?
    Mr. Sherman. I think that we need to put together a 
planning system that spells out----
    Mr. Schrader. But, basically, what you are saying is this 
rule doesn't even address that. You are going to have another 
set of rules that deal with the planning system to deal with 
what the Forest Service was originally set up to do, and that 
is to make sure that we have healthy forests.
    Mr. Sherman. This proposed planning rule provides for 
timber as a recognized multiple use. And it provides----
    Mr. Schrader. Multiple use? It is a major use.
    Mr. Sherman.--for the method by which----
    Mr. Schrader. If I may, I have limited time, unfortunately. 
I apologize, Mr. Sherman. But, I mean, it is the major use.
    I am very concerned about climate change. I am worried 
about the status of our forests. You indicated the bark beetle 
infestation, the forest fires. I see the inability of the 
Forest Service to deal with those right now with a limited 
budget. The President is proposing a cut in the Forest Service 
budget. There is no way you are going to be able to do your 
holistic approach. I am very concerned about that.
    You have listed guidelines. In the past, the guidelines 
that the Forest Service has used have provided an outline, 
allowed some discretion at the local level, depending on the 
particular National Forest that is out there. I am concerned 
that the new rule says that the projects must comply with the 
guidelines. In other words, you are creating new, hard and 
fast, one-size-fits all rules; is that correct?
    Mr. Sherman. No, that is not correct, Congressman.
    Mr. Schrader. Could you elaborate?
    Mr. Sherman. Yes. The standards and the guidelines under 
this proposed planning rule will be established by the local 
responsible official.
    Mr. Schrader. Good. Good.
    I would like to talk about the best available science 
information. That is a catch word that we all use. And that 
science seems to depend on which side of the issue you are on.
    Isn't it going to be very, very difficult to come to any 
decisions and won't there be lots of litigation over what is, 
``the best science,'' at the end of the day? So isn't this rule 
actually going to make things worse, not better, in terms of 
getting jobs done?
    Mr. Sherman. We do not believe so. We do feel it is 
important for our local responsible officials to get the most 
accurate, reliable information concerning projects, and review 
that information. Sometimes, with scientific information, there 
is not a unanimous opinion about an issue; it is up to the 
local official to review those different pieces of scientific 
information and then make a responsible decision about what 
needs to be done and document why and how that was decided.
    That is our intention about using best available science. 
It is not to go out----
    Mr. Schrader. Will there be deference given to the local 
Forest Service personnel, obviously, based on their particular 
situation in that forest?
    Mr. Sherman. Absolutely.
    Mr. Schrader. Okay. Good to hear.
    Last but not least, while the line of questioning is a 
little bit harsh--and I apologize for that, but it is an 
important part of industry in my state. And, in Oregon, we have 
been suffering for a long, long time.
    I do want to give you some kudos, though, on the pre-
decisional type of orientation that this forest rule has, that 
if you are not at the table to begin with, you don't raise the 
objections upfront, you don't have the ability to raise them on 
the back end. And any way we can help you to make sure that 
stays, I would like to work with you on that.
    Mr. Sherman. Thank you.
    Mr. Schrader. I yield back. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The next 5 minutes of questioning will be from the 
gentleman from Wisconsin, Mr. Ribble.
    Mr. Ribble. Mr. Sherman, thanks for being here today. I 
think this is a very important hearing. It certainly is for my 
district. I represent Wisconsin's northeast district, 
Wisconsin's Eighth District, which has one of the largest and 
robust forest lands in the United States.
    And I am wondering, the big concern--I will just give you a 
little bit of background, and maybe you can help me see through 
this. I want to talk a little bit about Laona, Wisconsin.
    Laona, Wisconsin, is a small, rural community in the heart 
of our Nicolet National Forest who, 20 years ago, had a 
thriving and robust school system. Through policies coming out 
of the USDA and the decimation of Wisconsin's timber industry--
literally, decimation of Wisconsin timber industry--we are now 
at risk of losing our rural schools. Because the timber 
industry that was funding those schools has been literally 
destroyed by bad policy coming out of this city.
    And I am wondering if you can tell me, since Secretary 
Vilsack has said a priority of his is revitalizing and 
strengthening our rural communities, how will this rule restore 
timber harvesting in northeast Wisconsin?
    And I would just also add, why in the world should 
northeast Wisconsin be importing timber from Canada rather than 
harvesting timber that is rotting in our National Forests?
    Mr. Sherman. We are very hopeful that this planning rule 
and subsequent actions taken by the U.S. Forest Service will 
result in responsible development of our timber resources. This 
rule provides for it.
    We need to set forth a framework, which this does, to 
identify lands within our National Forests that are suitable 
for timber. We need to streamline our environmental review 
processes so that we can have projects ready to go when timber 
sales come up. And we need to work hard on the collaboration 
side of this because, in the past, litigation has really 
complicated our ability to get important work done.
    Mr. Ribble. And who are those litigants? Who are filing the 
suits?
    Mr. Sherman. The litigants cover a wide spectrum of 
parties. Sometimes they represent environmental parties. 
Sometimes they are local parties. Sometimes they are timber 
organizations. There have a been a wide number of litigants in 
the past.
    Our hope is that we can bring these parties together, we 
can have a collaborative process which leads to a mutual 
understanding of what needs to be done. When that happens, I 
believe we will be much more effective in getting on with the 
business that needs to occur, which is to do good restoration 
work in these forests which will allow substantial amounts of 
timber production.
    And, this can be a win-win situation, but it is going to 
require collaboration. I think a lot of things in this rule are 
very helpful to set up a framework so that collaboration can 
occur.
    Mr. Ribble. Okay.
    You mentioned in your testimony or maybe in an answer to a 
previous questioner, when you were asked about when will timber 
harvesting be increased, you used the words, ``Well, we are 
hoping to have an upward trend.'' Did I hear that correctly?
    Mr. Sherman. I am hopeful that we will have an upward trend 
in the production of timber in this country, yes.
    Mr. Ribble. How do we change it from hope to reality?
    Mr. Sherman. Well, part of that, again, comes back to 
moving to a more cooperative environment as opposed to 
litigation. And litigation has been the principal reason we 
have not seen more timber production, along with the market 
forces that are currently occurring.
    But if we can establish a framework where there is good 
collaboration with the public, and if we have forest plans that 
identify areas suitable for timber production, and if we have 
an environmental review process that will work hand-in-hand 
with this so that it can get done expeditiously and 
efficiently, I am hopeful we can increase our timber output in 
this country.
    Mr. Ribble. I can tell you, as a former business owner 
myself, I have often heard government agencies talk about 
collaboration with business, but I rarely have experienced it 
in my lifetime. And to the degree that the USDA and the Forest 
Service is actually willing to collaborate, I can tell you that 
you could save schoolchildren, you could provide opportunity 
for rural communities to expand and improve, without more 
collaboration.
    I hope this is not just in answer to a Congressional 
Committee but it is an actual heartfelt sense at the U.S. 
Forest Service and USDA to actually make this happen. We need 
action, and we need it very, very quickly, as it relates to the 
timber industry in Wisconsin.
    And I yield back.
    The Chairman. I thank the gentleman.
    We are going to try to hold to our 5 minutes just because 
our first round of votes will be coming up here, hopefully not 
for 15 or 20 minutes. It would be great to get through all of 
our questioning with the Secretary. I know he has an 
appointment that he has scheduled for a little later this 
morning. We want to be respectful of that.
    And I yield to Mr. Holden.
    Mr. Holden. Thank you, Mr. Chairman.
    I just have one question. Mr. Sherman, it is my 
understanding that, the last time this rule was done, it was 
shelved during the implementation phase because of cost. It is 
also my understanding that USDA conducted a cost-benefit 
analysis as part of the process for this planning rule.
    Can you explain why a rule was shelved in 2000 due to cost 
and what the cost-benefit analysis now states? Did it become 
less costly over the past decade to do this rule?
    Mr. Sherman. The 1982 planning rule has had fits and starts 
since it came into existence.
    In 1995, and 1998, there were efforts to amend it, and then 
the 2000 rule was promulgated; it was then set aside by the 
incoming Administration.
    Mr. Holden. Because of cost?
    Mr. Sherman. Because of cost issues and complexity issues, 
that is my understanding. Then a new planning rule was put 
together in 2005. Then it was litigated, and set aside by the 
courts, and then another rule was promulgated in 2008, and then 
it was set aside by the courts.
    So we have looked at this history very carefully, and as 
for the rule that we have come up with now, we believe we can 
implement it in a cost-effective way. We have reviewed this 
very carefully with our professionals in the agency. We have 
had a lot of public comment on it, and will continue to have 
public comment on it, and we will go through those comments to 
see if we can make it more efficient than it is.
    But I have to say, one of our major concerns going into 
this was: can we come up with a rule that is implementable? And 
I believe that this draft is implementable. And we can 
demonstrate to you, I believe, if given the opportunity, that 
this will be implemented in an effective way.
    Mr. Holden. So, in your opinion, it was not cost-efficient 
in 2000 but it is cost-efficient now?
    Mr. Sherman. This proposed rule is more straightforward, 
more simple than what was proposed in 2000.
    Mr. Holden. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    And I now recognize the gentleman from Colorado, Mr. 
Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    And thank you, Mr. Sherman, for being here. I appreciate 
seeing you again.
    I want to go on maybe a little bit of a different track 
here. It is in regards to some of the leasing that we are 
having in the Forest Service right now.
    Your surface occupancy leases are the gold standard for 
environmental protection. They prohibit the lessee from 
disturbing essentially even a spoonful of dirt on the surface. 
NSO leases are more protective than any past, present, or 
future roadless rule, including those like Colorado's roadless 
rule. But the Forest Service is still refusing to offer the NSO 
leases and offering leases in the most restrictive 
environmental process possible.
    Can you explain why?
    Mr. Sherman. Congressman, I am not intimately familiar with 
this situation, and I have had to recuse myself from 
implementation of the Colorado rule since I was one of the 
authors of it prior to coming to Washington. But my 
understanding is that the Forest Service and the Department of 
Agriculture have released a proposed Colorado roadless rule, 
which is out for public comment now. And, the comment period 
ends in July, whereupon a final Colorado roadless rule will be 
issued.
    It is my understanding that the Administration did not want 
to do anything relative to these particular leases until there 
had been final action with the Colorado roadless rule. But I 
have not been involved in that, and I have had to recuse myself 
from that particular issue.
    Mr. Tipton. Okay. I guess just as a little bit of follow-up 
on that in terms of the policy of the Forest Service, we had 
received a letter from Deputy Secretary Jensen, who wrote me 
and said that the Forest Service was not going to offer any NSO 
leases in the Colorado roadless area, which you were just 
speaking to, because it wasn't finalized. And the Forest 
Service has concerns with consistency between the NSO oil and 
gas leases and the proposed rule.
    That position actually seems to be basically irrational 
because an NSO lease doesn't allow any disturbance in a 
roadless area at all. So any development of an NSO lease must 
be done from the direction of a well-drilling pad somewhere 
else.
    Where is the consistency in terms of the problem when there 
is no way that an NSO lease can disturb the roadless area?
    Mr. Sherman. Congressman, if you would permit us, I would 
like to ask Deputy Under Secretary Jensen to get in touch with 
you directly and to go over the specifics of this. And I am 
sure we can get you an answer as soon as possible.
    Mr. Tipton. You know, I would really appreciate that. You 
know, a lot of the issue--and I know you are well aware of 
this--in Colorado, and particularly the Third Congressional 
District, we have reported unemployment in double digits. Mesa 
County, as an example, had the highest unemployment rate per 
capita in the entire United States at one point last year. A 
lot of our public lands on the western slope of Colorado, 70 
percent of our lands are public BLM/Forest Service lands, 
native lands as well.
    And the Forest Service and the BLM used to have that policy 
of, ``land of many uses, yours to enjoy.'' And it seems that we 
are getting incredibly restrictive in terms of responsible 
development of these resources. And I would really appreciate 
the follow-up on that. We have to be able to get our people 
back to work. And we are going to play a critical role in our 
nation's future with the development of these resources.
    You know, when we are talking a little bit about some of 
the bark beetle damage that is out there, can you maybe give us 
an idea what the Forest Service is doing very proactively to 
allow private-sector people to be able to get in and harvest 
the downed timber and the dying timber?
    Mr. Sherman. The Forest Service is working with a wide 
variety of people, companies, to come into bark beetle-infested 
areas and to harvest this wood, where possible.
    One of our problems, quite frankly, as you well know, is to 
ensure that we have a viable timber industry that can process 
this material. I know the Montrose mill in Colorado is 
extremely important to the future restorations of Colorado----
    Mr. Tipton. Right. And that is in receivership right now. 
One of the issues that we have had--and if you could maybe let 
us know on this, as well--are some of the contracts for being 
able to harvest that timber. The contracts were based on prices 
when the economy was moving. And we now need to be able to 
address that because, simply, particularly with fuel costs now 
skyrocketing as well, the ability to be able to deliver that.
    Thank you, Mr. Chairman.
    Mr. Sherman. If I could just quickly respond, Mr. Chairman?
    The Chairman. Please.
    Mr. Sherman. We have been working very diligently with the 
receiver to review all of their contracts to see where we can 
modify those contracts. In fact, we have made a number of 
modifications.
    But it is our hope that we can provide a stable, long-term 
supply of timber to that mill and keep that mill going. 
Because, again, it is important for that community, and 
Colorado cannot effectively restore its forests without having 
mills in operation.
    Mr. Tipton. Thank you.
    The Chairman. Very good. Thank you.
    I now recognize the gentleman from New York, Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    Mr. Sherman, there has been some commentary in your 
testimony and also Mr. Schrader asked you about the question of 
best science. And I would like to get from you your description 
of what you believe that to be.
    My view is that oftentimes we suffer from what I would call 
``proponent science,'' where each side brings in experts who 
provide information that may be questionable. So I would like 
to see how you are going to shape up a best-science program.
    Mr. Sherman. Our hope is that we will be able to get the 
most accurate, reliable information, going forward, with the 
development of these forest plans throughout the country, and 
then the actions that we take under those forest plans.
    This is not a call for original research or Ph.D. theses on 
the various issues we are dealing with at all. It is to go to 
available, reliable information. And we will turn to 
stakeholders, the public, universities, our research centers, 
and other institutions, where necessary, to get information 
that can be helpful to these decisions that we need to make.
    There may well be competing science on a given issue. And 
it is up to our local responsible official to review these 
different materials and to explain how he handled the material. 
In other words, these materials don't dictate any particular 
decisions, but we want to be transparent, we want to explain 
what we do with this information.
    This is a standard that is, in fact, used with other 
agencies in the U.S. Government. It is not novel or unique. But 
we think it is important that we do get good information, good 
scientific information, before we make decisions.
    Mr. Owens. Thank you.
    When you say the local responsible official will make that 
decision, can you describe for me the typical position of that 
responsible official?
    The reason I am asking the question is, if this is 
scientific information, then the person who would parse it and 
make a decision about it clearly would have to have the 
background to be able to do it. And that is why I would like to 
know who those persons might be, not individual names, but just 
the title.
    Mr. Sherman. Sure. Typically, the local responsible 
official would be a Forest Supervisor, the individual 
overseeing that particular unit of a National Forest. Now, this 
individual is not operating in a vacuum when he receives this 
information. He will have access, again, to our research 
centers. His decisions will be reviewed by a Regional Forester 
or perhaps others. As I say, this individual will get a lot of 
information from the public, from stakeholders and others.
    So there will be a lot of information coming to this 
individual, and we believe our Forest Supervisors are trained 
to handle these types of issues. And they ultimately will be 
able to make appropriate decisions.
    Mr. Owens. Will there be any, if you will, national, 
independent review by individuals who have the appropriate 
expertise but also are not in any way connected to either or 
any of the proponents or stakeholders?
    Mr. Sherman. I think it would depend on the issue. For 
example, with the national planning rule that we are working on 
now, we have brought in scientists from all over the country to 
assist us in the formulation of the draft rule. And since the 
draft rule has been out, we have had further review internally 
by Forest Service scientists and by an external science panel.
    So, on a major rule such as this, yes, science is brought 
to bear. And with individual forest plans, depending on the 
issue, the Forest Supervisor will seek outside assistance to 
assist him in understanding the issues.
    So, again, I think it depends on the complexity of the 
issue we are facing, but science should be part of our 
decisions.
    Mr. Owens. Thank you very much.
    I yield back.
    The Chairman. I thank the gentleman.
    I now recognize the gentleman from Illinois, Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you, Under Secretary Sherman.
    A couple quick question. One, I understand that many 
stakeholders--I think I saw that 65 different stakeholders had 
signed a letter and have asked your agency to extend the 
comment period for the proposed rule by 90 days.
    Given the persistent questions regarding the rule's impact 
on jobs and the regional economy, I wonder why the Department 
of Agriculture declined to grant this extension.
    Mr. Sherman. Congressman, thank you for that question. Let 
me explain why we have declined this request.
    We front-loaded this process by working with the public and 
working with stakeholders for a year and a half to come up with 
the proposed draft rule. And this may have been before you 
arrived, but I explained we had some 40 meetings around the 
country, we had more than 3,000 people who participated in 
those meetings, we had 26,000 comment letters on the draft 
rule. Since the draft rule came out, we have had another 29 
meetings around the country. We have Web-streamed this to 74 
sites. There has been as bottom-up a process as I have seen in 
my government experience.
    We originally were going to provide 60 days of public 
review. Internally, we decided we would stretch that to 90 
days. I am apprised that, apparently, in the previous planning 
rules, there was usually 60 to 90 days provided.
    And, at some point, we just have to get on with completing 
our review of this rule. We feel we have really extended 
ourselves to the public. We have given lots of opportunities, 
and we feel now we have to move on and bring this to closure.
    Mr. Hultgren. I think, with the impact that it is having 
and the significance of this, to me, it doesn't seem like 
another 90 days, from what I hear, would be that detrimental 
for the agency but really could be significantly beneficial for 
the number of stakeholders. You know, maybe it is too late, but 
I wish that would have been reconsidered. I think this is 
important, and, clearly, we are seeing that.
    A couple other questions real quick. What does the proposed 
Forest Service planning rule do to relieve the agency's 
``analysis paralysis,'' as described by former Forest Service 
Chief Dale Bosworth?
    Mr. Sherman. I think we feel that this planning rule will, 
in fact, reduce the time to prepare new forest plans. The 
previous forest plans took 5 to 8 years, on average, to do. We 
think the new, revised plans will be capable of being completed 
in 1 to 3 years.
    We believe the collaboration that is encouraged in this 
rule is going to reduce litigation. And we believe this 
adaptive framework will allow us to be much more nimble and 
flexible and focused, doing small amendments as we go along 
rather than waiting and waiting and waiting for a major change 
or revision of the planning rules.
    In our discussions with our professionals in the agency, we 
have asked this question over and over and over: Will this be 
more efficient? And the answer we have gotten back from the 
people who are very experienced is, ``Yes, this is a much more 
focused, nimble, flexible rule, and it should work much more 
effectively than the previous rule.''
    Mr. Hultgren. One more question, if I may. Why does the 
proposed Forest Service planning rule frame its standards for 
species conservation in terms of maintaining viable 
populations, when the National Forest Management Act never 
mentions population viability but, rather, frames statutory 
direction in terms of maintaining plant and animal community 
diversity?
    Mr. Sherman. The 1982 planning rule that we are operating 
under does have a viability standard. And it was a standard 
which was in certain ways very difficult for us to meet, with 
respect to native vertebrates, because the Forest Service has 
control over certain things that we handle, but we don't have 
control over everything. And so, this particular rule does have 
a population viability standard as it applies to species of 
conservation concern. But that is actually, in some ways, a 
reaction to what was required under the 1982 rule.
    Our goal here is to keep common species common. And our 
goal is, where we have threatened and endangered species, we 
want to contribute to their recovery. Where we have candidate 
species, which may go on the endangered species list, we want 
to conserve these species so they don't go on the endangered 
species list. And where we have species of conservation 
concern, in these cases, we want to move forward in a way which 
contributes to keeping their populations viable.
    I think this is a reasonable approach. It is, in some ways, 
a limitation of what was done under the 1982 rule, but it is 
one that we think we can properly implement.
    Mr. Hultgren. I yield back. Thank you.
    The Chairman. I thank the gentleman.
    I now recognize my friend from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman.
    I am, as the Chairman duly noted, from Florida, Florida's 
Second Congressional District. And we are, obviously, proud of 
the Apalachicola National Forest. And I had some questions 
regarding the forestry plan there in Apalachicola, if we could 
discuss that for just a few moments.
    Obviously, in our area, we are home to longleaf pine, which 
is a huge production. We harvest much timber pine in north 
Florida. And I want to ask you, what is--well, let me just read 
this.
    According to the USDA's website, ``The Apalachicola, 
Osceola, and Ocala National Forests are public lands that 
protect more than 1.2 million acres in north and north-central 
Florida.''
    Please elaborate on why the term protect is used solely and 
why there is no stated purpose of timber economic activity if 
one of the stated purposes under the plan is to strengthen jobs 
and rural communities?
    Mr. Sherman. Congressman, I had earlier explained that 
timber production is an important multiple use, as provided for 
in this proposed national planning rule. There are several 
sections of the rule that do deal with timber and the 
importance of timber. And we believe that this planning rule 
sets out a framework where we will identify areas that are 
suitable for timber production, areas that are not suitable for 
timber production. We will be identifying expected levels of 
timber production in individual National Forests.
    We think it is an important part of the economic 
sustainability that this plan provides, and we think it is an 
important part of the restoration efforts that are going on 
around the country.
    Mr. Southerland. Let me say this, if I could. If your 
statement is, in fact, true, if you believe that it is 
important to the communities that surround the National 
Forests--I know in the Apalachicola National Forest, 10 years 
ago they were harvesting 24 million board feet out of the 
Apalachicola National Forest. That was drawn down to zero--
zero--zero harvesting annually. Okay? And now we are back to 6 
million board feet. So we are still 75 percent below where we 
were 10 years ago.
    If your statement is correct, that the Department believes 
that harvesting out of the National Forest is critical and it 
has an economic component that is critical to the neighborhoods 
and the communities around the National Forests, then why, 
then, what you just said is not factual as to what has been 
done?
    Mr. Sherman. I think, at least as a general statement, 
market forces have been an important factor here. Litigation 
that has shut down our efforts to produce timber in certain 
areas has been a factor. Sometimes our planning efforts have 
not been as nimble and focused as they should be. It is a 
variety of things that have caused the reduction in the levels 
of timber production in this country.
    It is our hope here that we are going to provide a 
framework which will be responsive to the needs of the public, 
the needs of these communities, and that can be done in a way 
that is environmentally sound. I think you can do both.
    Mr. Southerland. Is there currently a harvest date, crop 
rotation schedule, that when you know you are going to plant, 
for example, longleaf pine, is there a set schedule that you 
know that in X amount of years that particular quadrant of the 
forest will be harvested?
    Mr. Sherman. I think that there will, in a given forest 
plan, be certain long-term projections about how long it will 
take to re-establish a forest and whether there will be certain 
portions of that forest which will be amenable to timber 
production.
    Mr. Southerland. But isn't that really the purpose of a 
National Forest? I mean, we are not talking about national 
parks. And there is a difference between the two. And so, 
therefore, when you distinguish and you say in a National 
Forest that this area is going to be wilderness, you might as 
well say that inside that National Forest that you are making 
that particular area a national park.
    Mr. Sherman. Well, under our authorizing legislation, there 
are multiple purposes that are attached to National Forests.
    Mr. Southerland. And one of those is economic vibrance to 
assist the communities.
    Mr. Sherman. That is correct, but there is also ecological 
sustainability.
    Mr. Southerland. But that is what national parks are for.
    Mr. Sherman. No. National Forests, Congressman, also 
provide for ecological sustainability. It is our job to figure 
out how we can have both ecological sustainability and economic 
vibrance.
    Mr. Southerland. I would agree. But for you not to have a 
harvest date crop rotation schedule tells me that you are 
utilizing a park mind-set in National Forest areas, and I think 
that that is a disservice to the American people, especially in 
Florida when we are staring at 12 percent unemployment.
    Mr. Chairman, I yield back my time.
    The Chairman. I thank the gentleman. And I am going to take 
the opportunity for the last 5 minutes.
    First of all, Mr. Secretary, thank you for being here. 
Frankly, this Committee, I hope you get a sense, shares your 
passion for our forests. We chose to serve on the Agriculture 
Committee, many of us. A primary reason was the fact that trees 
are cropped. And I hope you also sense our frustration that 
what we are seeing--and I don't pretend to speak on behalf of 
every Member of the Committee--and there are some that would 
agree based on some of the line of questioning--that we are 
concerned with what I would call ``mission creep'' within the 
United States Forest Service. Trees are cropped. That is why 
U.S. forests are not under the Interior Department, as my good 
friend referenced; it is under the Department of Agriculture.
    I know there are a lot of pressures, certainly a lot of 
pressures in Washington on agencies, and I have a lot of 
respect for folks within the USDA and the Forest Service, but 
these pressures are out there. I think we are pretty clear 
about where we stand, at least from my perspective, with our 
forests, providing resources. Resources have made the country 
strong and will make it strong in the future.
    I have numerous concerns--well, first of all, there are 
just so many questions and so little time. So I am going--I 
will formally do this for Secretary Vilsack and yourself--
request an extension on this so we have an opportunity for at 
least one more hearing to be able to have some good discussion 
and allow all key stakeholders to come to the table and 
encourage folks to weigh in from different communities.
    I do have concerns with expanding scope of mission, what I 
would call mission creep, within this proposed rule, things 
that are in there, such as climate change. I mean, you want to 
put a controversial thing in Washington that will be challenged 
from all sides. Why would you do that? Because you are going to 
create enemies, you are going to create friends. It is one of 
those terms that, frankly, will never be agreed upon. That is 
just reality. Things adding mission creep, like invertebrates, 
into this. Just language, vague definitions and terms. And that 
is an area of specific concern that I do have because in the 
Forest Service, there are good scientists and certainly good 
forest technicians that try to do work, but much of the changes 
that come, come through the court system. And we got to figure 
out how we stop reimbursing, frankly, what I consider to be 
special interest groups that are fundraising through filing 
lawsuits against the Forest Service. They are having more 
influence on the Forest Service public policy than what Members 
of Congress are and certainly what local communities are that 
agreed in a collaborative way a century ago to give up their 
private lands to have them become public lands. We have to 
figure out how we stop that, how we stop at least rewarding 
them by paying their court costs.
    So there is a lot of concerns out there, and all kinds of 
different ways to go. Obviously energy is very important in my 
National Forest. I am very proud it is a profitable National 
Forest. In your written testimony you said that the planning 
framework in the proposed rule would help the Forest Service 
provide, among other things, access to minerals and energy.
    How, specifically, does the proposal treat energy 
production on Forest Service lands?
    Mr. Sherman. The draft planning rule recognizes both 
renewable and nonrenewable energy as multiple uses that will 
occur on National Forest lands.
    As I stated earlier, part of our mission here is to 
contribute to economic sustainability. So there is activity now 
going on on many of our National Forests concerning energy 
development, both renewable and nonrenewable, and this plan 
provides a framework for how that will continue.
    The Chairman. Well, the Forest Service essentially and the 
Administration laid off a whole bunch of folks in January of 
2009, shortly after I was sworn into Congress for the first 
time, by putting a moratorium on the drilling permits for oil 
and natural gas. And actually, interestingly enough, 93 percent 
of the subsurface rights in the Allegheny National Forest are 
privately held, so it was such an infringement on private 
property rights. In fact, a Federal judge in Erie, Pennsylvania 
found, not once, but twice against the Forest Service. But the 
Forest Service, with the Sierra Club, a partnership, imposed 
that moratorium. So I think that to me it emphasizes how we 
need very specific terms and definitions because when you start 
saying invertebrates--I can see people that own subsurface 
rights, I can see the Forest Service, which I think has a 
fiduciary responsibility to produce timber--that is good for 
our communities, it is good for America--with vague terms, that 
is all the more opportunity to be sued and allow some of these 
groups to do their fundraising by filing these lawsuits. They 
are going to shut down timber because of invertebrates, because 
of a snail someplace, we are not going to allow the folks who 
own subsurface rights to be able to exercise those private 
property rights. So I really would encourage a little more 
thoughtful process in terms of defining terms very 
specifically.
    I want to ask a little bit about the public participation 
and how engaged they were. In section 219.4, there was a 
request for public participation. As I was reading through it, 
I found it interesting--and you talked about a fairly 
comprehensive approach to different folks you reached out to, I 
didn't hear you talk about--and maybe it was there, and I 
certainly didn't read it in the text--much reference to the 
people who gave up their land to form these National Forests, 
the counties. And we are going to hear from a County 
Commissioner in the next panel, the school districts, the 
boroughs, the townships, the folks whose very economy they 
said, you know what, we will allow these. These were my 
predecessors in Pennsylvania about 87 years ago who were at the 
table with these folks and said we are going to allow these 
private lands to be taken off the tax rolls and put on the 
public rolls with the United States Forest Service to manage 
them through USDA. I am sure it was with an assurance that 
there would always be a strong and vibrant economy. And we just 
haven't seen that.
    And I know there are different market influences at play, 
but that just means that I think the Forest Service has to be 
overly aggressive with its production of resources. There are 
some market influences we are not going to control, preferences 
for different types of wood, a depressed housing industry, 
those types of things. But the fact is that the Allegheny 
National Forest, which the current forest plan, management plan 
says it can harvest 90 million board feet, we are doing much 
better than Florida, my friend in Florida, we have been doing 
20 million board feet out of that 90. Most recently--and I 
appreciate it, actually, since I have come to Washington--and I 
like a very collaborative process for the Forest Service, it is 
going to 40 million board feet.
    But describe for me, how has the Forest Service engaged 
what I think are the very key stakeholders, the local 
communities who gave up their private grounds to have them 
become public grounds and public trusts as a National Forest? 
Are you satisfied with the specific things that were done in 
terms of communicating directly with them, other than saying 
you have 90 days to get back to us?
    Mr. Sherman. As I say, we did reach out, and as part of our 
effort of reaching out we have worked with counties, we have 
worked with state governments, we have worked with local 
landowners. This proposed planning rule does encourage local 
governments to work closely with us on the formulation of 
forest plans. And Congressman, we have a provision here which 
offers both local governments and state governments cooperating 
agency status as we move forward with these individual forest 
plans.
    We think it is very important to work with the counties, to 
look at their current plans for what they want to do with 
surrounding communities and surrounding areas, and we will do 
that. And I might also say that at every stage of this process, 
whether it is the assessment process or the amendment 
processes, or the monitoring or the environmental review 
processes, we are hopeful that local governments and local 
landowners will work with us.
    I might also just say that when you look at the types of 
issues the Forest Service is dealing with, many of these issues 
we have to look at on an all-lands basis. We can't just look at 
where the Federal property line ends. When you have fire 
issues, water issues, invasive species type issues, wildlife 
issues, it covers a wide swath of land and we need to have a 
cooperative relationship with our neighbors.
    The Chairman. And I appreciate that approach. I think that 
land rolls up not just to those specific types of land you 
talked about, it rolls up to the steps of the county 
courthouse, it rolls up to the classrooms, it rolls up to the 
business and industries and the township and the borough.
    So I appreciate the opportunity to work with you, and I 
look forward to doing that. I think that we are all on the same 
page in terms of having a passion for our National Forests. We 
are committed in the Agriculture Committee that trees are a 
crop, and that we have a responsibility back to our rural 
communities and to this nation to make sure we are providing 
the sustainable resources certainly for business, for industry, 
for construction, for energy, which is kind of an exciting new 
opportunity that our National Forests can help us meet our 
domestic energy needs.
    I really appreciate your time. I know that you are very 
busy and you have a busy schedule today. So thank you so much 
for taking time and being with us.
    And I will be sending something formal over to Secretary 
Vilsack and to you. We just have a lot of questions. We just 
want to make sure this is an exhaustive process. I know there 
are times, having worked around the Forest Service for a while, 
there are times where comment periods, when our local 
communities are waiting for something, those tend to get 
expanded when it is in the best interests of the Forest 
Service. I think there is probably nothing more important than 
these plans, proposed rules, and so we will be requesting an 
extension so we can take at least one more opportunity like 
this.
    Thank you, Mr. Secretary. I appreciate it.
    Mr. Sherman. Thank you. And we look forward to further 
discussions with you.
    The Chairman. I look forward to it, Mr. Secretary.
    Votes have been called. We have two votes. And so I 
apologize to the second panel; there is going to be a bit of a 
delay. The first vote will last probably another 15 minutes, we 
hope--until we get to the floor--and then there will be one 
vote right after that we can vote immediately and we will be 
back. So we will recess just for a short period of time, and 
then the Subcommittee looks forward to being back and convening 
with the second panel.
    [Recess.]
    The Chairman. We reconvene this Subcommittee hearing for 
the Agriculture Subcommittee on Conservation, Energy, and 
Forestry. I would like to welcome our second panel of witnesses 
to the table. First, we will introduce all four of the 
witnesses, and then we will get started.
    The first of our witnesses, as I referenced in my opening 
statement, is Commissioner John Bortz from Warren County. 
Commissioner Bortz, thanks for being here.
    Now I am going to yield to my good friend from Wisconsin to 
introduce a constituent of his who is our second witness.
    Mr. Ribble. Good morning, everybody. I want to welcome 
Steve Guthrie to the panel this morning. Steve is a constituent 
of mine from Laona, Wisconsin. He is a professional forester 
and has done this for a very long time. And Mr. Guthrie, I 
understand it is your birthday today, so happy 39th birthday. 
It is very good to have you, and thanks for coming.
    The Chairman. We are also joined on the panel by Mr. John 
Shannon, Vice President of the National Association of State 
Foresters in Little Rock, Arkansas. Mr. Shannon, thank you for 
being here.
    And our fourth witness is Mr. Jack Terrell, Senior Project 
Coordinator, National Off-Highway Vehicle Conservation Council, 
from Auburndale, Florida. Thank you. I appreciate all of your 
testimony.
    Before you are three lights. When you get to 1 minute 
remaining, the yellow light will come on. When it hits the red, 
I will give you a little audible signal for that as well. I 
don't like to cut anybody off midstream, so take a sentence or 
two to complete whatever thoughts you want. Be assured that all 
Members of the Committee have your written testimony. We very 
much appreciate the time that went into preparing that and 
providing it for us, and we look forward to your verbal 
testimony.
    Mr. Bortz, please begin when you are ready.

 STATEMENT OF JOHN R. BORTZ, Jr., COMMISSIONER, WARREN COUNTY, 
                    PENNSYLVANIA, WARREN, PA

    Mr. Bortz. Thank you, Mr. Chairman. Good morning to you and 
to the ladies and gentlemen of the Committee.
    My name is John Bortz, Jr., and I am currently serving in 
my fourth year of my second term in office as a Country 
Commissioner within the Commonwealth of Pennsylvania. The body 
of three Commissioners is statutorily charged by the 
Commonwealth with both executive and legislative authority in 
order to administrate the affairs at the county level.
    Pennsylvania has a history steeped in forestry. Its name, 
literally translated, means Penn's woods, a distinction earned 
by our founder, William Penn, and the dominant characteristic 
of our landscape.
    Within our boundaries is over a half million acres of 
federally owned property called the Allegheny National Forest. 
My county, Warren, makes up over \1/4\ of the total acreage of 
the ANF and it is a sizeable presence within my county. I know 
that many of my colleagues throughout the United States share 
in this distinction.
    My professional experience with the National Forests are 
varied. Since 2003, I have actively participated in the latest 
revision of the forest plan, allocated financial resources from 
Secure Rural Schools funding under title III, appointed members 
of my communities to serve on resource advisory committees, and 
testified in Federal court concerning litigation between the 
Allegheny National Forest and members of the oil and gas 
industry.
    In both my capacity as a County Commissioner and as a 
concerned citizen, I am very interested in the proceedings that 
will modify the forest planning rules. I have submitted a White 
Paper for your consideration as part of my testimony, and in it 
are outlines of my experiences while working through the latest 
revision of the Allegheny National Forest forest plan.
    By my observation, the forest planning process touches on 
three critical areas--resource management, economic impact, and 
government-to-government relations. Our National Forests are a 
renewable resource that can bring a tremendous economic 
stimulus to our nation's communities. The best strategies for 
assuring forestry conservation and community revitalization 
occur when local governments are made a part of the forest 
planning and management process.
    While the forest planning rules provide the framework for 
the planning process, they haven't been implemented in a manner 
that consistently welcomes local government involvement, and 
consistently is the key word. Too much is left up to the 
sentiments of the forest officials' interpretation.
    Furthermore, no planning provision should directly or 
indirectly interfere with personal property rights. I have seen 
on many occasions where intrusiveness is imposed as authority. 
Over 90 percent of the subsurface holdings underneath the 
Allegheny National Forest are owned by others. They have claim 
to this property, and must not be prohibited by the service 
holder from accessing it.
    Thank you.
    [The prepared statement of Mr. Bortz follows:]

Prepared Statement of John R. Bortz, Jr., Commissioner, Warren County, 
                        Pennsylvania, Warren, PA
A Strategy for Bringing the Allegheny National Forest Administration 
        and County Governments Toward a More Effective Relationship
(1.0) Executive Summary
    Until recently, Federal and county governments have had an arm's 
length relationship pertaining to the Allegheny National Forest. 
However, a number of eroding influences impacting the county level are 
forcing Commissioners to address the performance of the Allegheny 
National Forest and to coordinate with the management of that asset 
toward the highest and best use for their communities.
    To be clear, the ultimate authority for managing the Allegheny 
National Forest rests with the Federal Government. The Department of 
Agriculture's Forest Service is responsible for administrating all 
vegetative management and land use, but they must do so within the 
context of a number of Federal regulations. Within those regulations, 
specific involvement is allocated to county governments, and it is the 
purpose of this document to utilize these regulations so the four 
counties of the Allegheny National Forest can coordinate with the 
Federal administrators.
    Elk, Forest, McKean, and Warren Counties must take a strong 
leadership role at the Commissioner level on this issue. This may best 
be accomplished through the formation of a four-county coalition 
responsible for formulating consensus based positions. In addition, 
this coalition could provide coordinating planning activities with the 
ANF administration as permitted by Federal regulations. The end result 
of county leadership will be more effective and efficient communication 
between local officials and the Federal administrators.
(2.0) Introduction
    Warren County is one of four contiguous subdivisions of the 
Commonwealth of Pennsylvania whose relationship with the Federal 
Government includes a National Forest. Elk, Forest, McKean and Warren 
Counties serve as a collective host for a Federal asset that measures 
over a half-million acres.

------------------------------------------------------------------------
                                                         Percentage ANF
     Counties            Acreage         ANF Acreage          Owned
------------------------------------------------------------------------
           Elk             530,336           111,846            21.09%
        Forest             275,840           119,116            43.18%
        McKean             628,205           135,346            21.54%
        Warren             565,120           147,018            26.02%
------------------------------------------------------------------------

    By virtue of its geographic size alone, the Allegheny National 
Forest (ANF) deserves the attention of the Commissioners; more than \1/
4\ of the total acreage of the four counties is controlled through the 
ownership of the United States Government and this through the 
Department of Agriculture's Forest Service. When the monetary impact of 
the affiliated industries is considered, the Commissioners can easily 
justify giving the ANF priority status in their executive and 
legislative decision-making, but county government abilities are 
quickly challenged whenever they face the task of interfacing with a 
multi-billion-dollar Federal bureaucracy that abides by a myriad of 
strident regulations. Ultimately, the question before us is how can 
county government be assured that its local issues are being considered 
or accommodated by this monolithic agency? To date, no formally adopted 
position pertaining to the interplay of local interests against Federal 
management has been received by the ANF administration, nor is there a 
protocol for interfacing with those Federal administrators. The 
challenge in rectifying these deficiencies lies on two levels: (1.) any 
formally adopted position reflecting the local needs vis-a-vis the 
Allegheny National Forest must be inclusive regarding the various items 
of local concern, and it must be specific in detailing those issues; 
and, (2) to be effective, communication protocols must be created and 
administrated in a manner consistent with local, state, and Federal 
guidelines.
(2.0) Recent History of the ANF Administration and County Governments
    The need for an official local position is beyond question, and 
that was never more apparent than during the development of the recent 
forest plan. As a forest plan is in process, Federal regulations 
require the Forest Supervisor to solicit input, on an early and 
frequent basis, from local officials who have jurisdictional authority 
within a National Forest. The language in the Code of Federal 
Regulations is very clear on this matter. 36 CFR 219.14 reads as 
follows:

        Involvement of state and local governments

          The responsible official must provide early and frequent 
        opportunities for state and local governments to:

                  (a) Participate in the planning process, including 
                the identification ofissues; and
                  (b) Contribute to the streamlined coordination of 
                resource management plans or programs.

    In spite of the ``early and frequent'' requirement, the ANF 
planning team developed a scope of issues as they formulated their 
Notice of Intent without the strategic involvement of local officials.
    The Notice of Intent, the document submitted to the Federal 
Register to initiate the forest planning process, was filed on 
September 23, 2003. One of the objectives of creating a Notice of 
Intent is to identify the preliminary issues which need addressed, and, 
in accordance with 36 CFR 219.14(a), the input of local governments is 
required to identify them. However, nowhere in the ``Government 
Participation'' section of the Notice of Intent is local government 
involvement identified; only state and Federal agencies are 
specifically listed.
    After the Notice of Intent was filed, numerous concerned citizens 
and elected officials repeatedly asked then Forest Supervisor Kevin 
Elliot about the role of local governments in the forest planning 
process. He publicly directed their efforts toward the Collaborative 
Learning Approach, and on numerous occasions he upheld that same 
process as the method through which input would be received. Many of 
the same individuals chastised Mr. Elliot regarding the ineffectiveness 
of the Collaborative Learning Approach as they strongly felt it was an 
inappropriate forum for elected officials to communicate with the ANF 
administration. In fact, they asked him if their communication efforts 
were placed on equal footing with those who maintained ``fringe'' 
positions of a micro-minority. He affirmatively answered this question, 
and he indicated that if the local leadership did not participate in 
the Collaborative Learning Approach, that was their choice to do so. He 
did not offer any other alternative modes for local governments to 
participate in the planning process.
    Mr. Geoff Chandler followed Mr. Elliot in an interim appointment to 
the Forest Supervisor's position. The same questions were posed to him 
relative to local leadership involvement, and he responded in a much 
different fashion. He referenced his experiences at other National 
Forests where local officials had a greater participatory role. He also 
provided specific regulations which mandated the U. S. Forest Service's 
embracing local governments at the earliest opportunity during the 
planning cycle. This new position by ANF top-level management signaled 
an opportunity for local government involvement, but local officials 
also expressed an underlying concern that it may already be too late. 
Even still, local leaders were conservatively encouraged, and they 
became more directly involved.
    Kathleen Morse picked up on the initiative of Mr. Chandler during 
the Summer of 2005 as she assumed her role as Forest Supervisor. County 
Commissioners, County planners, township supervisors, school board 
members, and others were provided an opportunity to outline their 
standing to the ANF planning team. One of the earliest meetings for 
this purpose was held on September 19, 2005, almost 2 years after the 
initial filing of the Notice of Intent. My notes taken at that meeting 
read as follows:

        ``The largest procedural issue I have with the current planning 
        process is timing: the counties are strategically disadvantaged 
        due to our recent involvement. At this point, the counties 
        should be asserting our preferred alternative. Instead, the 
        counties are playing catch-up to the ANF regarding our 
        engagement and dialogue.

        Their timeline continues while the counties become educated. 
        Until a correctingmeasure is affected onto their timeline, the 
        counties will be unable to present theirpreferred 
        alternative.''

    By that time, the public sector's lacking of an opportunity to 
prepare for this issue became glaringly obvious. While the vast 
majority of local government officials shared consensus-based 
positions, our ability to contribute to the planning activities was 
compromised, because a codified public position at the local level was 
not in existence. Furthermore, even if a position were available, the 
framework by which we could effectively participate in the planning 
process was limited due to the ANF planning team not involving local 
officials on an ``early and frequent'' basis as required by law. We 
were forced to communicate to the planning team through means largely 
designed by the local ANF administration resulting in a dialogue that 
was reactionary rather than participative in nature. In short, we 
didn't know what to say, nor did we know how to say it.
    The most furtive attempt to officially communicate a local position 
to the ANF planning team came in the form of a twelve-point resolution. 
The efforts leading up to the creation of the resolution involved 
numerous township supervisors, County Commissioners, school board 
members, industry groups, planning agencies and others, and a sizeable 
number of those involved formally approved the twelve-point resolution 
at their regular public meetings.
    Of particular note are the activities of the local development 
districts (LDD's) surrounding the ANF in their handling of the twelve-
point resolution. LDD's are the regional agencies within the 
Appalachian Regional Commission. This multi-state, federally chartered 
organization is located within the Eastern United States ranging from 
Southern New York to Alabama, and its fundamental charge is planning. 
Within the Commonwealth of Pennsylvania, county officials maintain 
seats on the boards of LDD's, and they use the planning and development 
resources of these organizations to communicate local concerns to any 
number of government agencies. Southern Tier West (three counties, New 
York), the Northwest Commission (eight counties, Pennsylvania), and the 
North Central Commission (six counties, Pennsylvania) encompass the 
perimeter boundaries of the Allegheny National Forest as well as a man-
made lake within the ANF, the Kinzua Reservoir. All three of these 
LDD's formally considered the twelve-point resolution at separate, 
respective board meetings. The Northwest and Southern Tier West 
Commissions both unanimously adopted the resolution; North Central 
Commission formally adopted the resolution as their official position 
with only one dissenting vote.
    The lack of coordination between the LDD's and the ANF planning 
team is another topic worth mentioning. As stated earlier, the 
Appalachian Regional Commission is a federally funded, multi-state 
agency that is charged with planning. The three LDD's that encompass 
the perimeter of the ANF are fully engaged with their respective 
counties and municipalities, and the Northwest, North Central, and 
Southern Tier West Commissions could have played a much greater role 
throughout the entire forest planning process. In fact, 36 CFR 
219.14(b) specifically charges local governments to be involved in the 
planning process in an effort to ``streamline coordination of resource 
management plans or programs''. These respective LDD's could have 
significantly bolstered the forest planning efforts with their 
resources, but they were not mentioned in the Notice of Intent nor were 
they brought into the planning discussions until much later; one 
federally funded agency, the ANF, did not significantly involve another 
federally-funded agency, the ARC, in order to make them an ``early and 
frequent'' contributor even though the latter agency's core charge is 
planning.
    Warren County acted as the repository for those who approved the 
twelve-point resolution, and the collated documents were then forwarded 
to the ANF for their consideration. In spite of these regional efforts, 
the ANF administration gave the submitted twelve-point resolutions not 
much more than a cursory acknowledgement in their draft release of the 
new forest plan.
    In May of 2006, a Draft Environmental Impact Statement of the 
forest plan was released. In the summary documentation under the 
``Alternatives Considered But Eliminated'' section, the ANF planning 
team acknowledged receiving the twelve-point resolution. In their 
comments, they stated some points are responsive to several of the 
points recommended, other points simply are not feasible, and some are 
outside of the scope of the plan revision. The final comment pertaining 
to ``outside the scope'' issues begs the question: if local governments 
were involved at the earliest opportunity, as clearly stated in 36 CFR 
219.14, then is it beyond reasoning that the original scope of issues 
of the 2003 Notice of Intent could have been more inclusive of local 
government sentiments?
    The forest plan, the comprehensive guiding document which will 
serve as the basis for land use plans on the ANF for the next decade or 
more, was put into effect Spring 2007, but, to date, discussions 
pertaining to communication mechanisms between county officials and ANF 
administration are on going. Due to this arrangement, while decisions 
by ANF administration pertaining to the forest plan or any other 
significant activity on the ANF may be communicated to local officials, 
no coordinated efforts between the two parties have been officially 
established. They are currently performed on an ``ad hoc'' basis, and 
this was evidenced as the planning activities of the ANF administration 
addressed their recreation plan.
    Among the multiple-use nature of the Allegheny National Forest is 
recreation. Primitive and developed campsites, hiking trails, hunting, 
scenic overlook areas, and designated motorized trails are only some of 
the many activities that are enjoyed on the Allegheny National Forest, 
and the U.S. Forest Service maintains authority over these uses and the 
development of them. No small amount of local benefit is realized as 
visitors patronize our communities while they pursue their pastimes, 
and with that in mind, the counties have a vested interest in seeing 
that the ANF is successful in managing desirable recreational venues.
    Similar to the overall forest planning process, the ANF 
administration is required to create a recreational plan with the 
specific purpose of setting objectives for recreational use on the 
forest. The ANF administration initiated their efforts with an ``open-
to-the-public'' forum on January 29, 2008. No formal pre-planning was 
performed with the counties prior to this meeting as required by 36 CFR 
219.14.
    ANF officials met with the counties throughout the recreational 
planning process, and they appeared to be more sensitive to county 
issues. However, the quality of the planning procedure was severely 
undermined due to an accelerated timeline. The recreational planning 
process in other National Forests has taken up to 3 years to perform; 
however, the County Commissioners were made aware by the ANF 
administration that they were required to have the recreational plan 
completed in less than 1 year. Their explanation for this mandated 
timeline was that due to the protracted cycle of the forest plan, the 
recreational plan was delayed.
    Further complicating the ability of the Counties to interface with 
the ANF administration is the rapid turnover of personnel in the top-
levels of the ANF management. For example, from 2003 until present day, 
no less than six individuals have held the Forest Supervisor's position 
on a permanent or interim basis. Similar staff positions within their 
organization have also experienced turnover exacerbating local 
officials in their attempts to communicate with the ANF administration. 
In the absence of a recognized Memorandum of Understanding which would 
detail communication protocols between the U.S. Forest service and 
local governments, the engagement between the two parties is heavily 
favored to the arbitrary sentiments of the local Forest Supervisor.
    The churning of upper-management staff creates additional 
complexities aside from lack of continuity: it calls into question 
their ability to render benevolent decisions at the local level due to 
their lack of ``not knowing the neighborhood''. A Forest Supervisor, 
within the U.S. Forest Service, may come from anywhere in the country. 
While that individual may understand the bureaucracy and the national-
level issues, s/he will have limited knowledge of current local issues. 
The Allegheny National Forest is a forest that is as plentiful in 
complexity as it is rich in resources, and someone from outside of the 
area, absent a tie to leadership at the most intimate jurisdiction, is 
affected by a learning curve as s/he determines the sentiment and 
priorities of local concerns. A common theme expressed among local 
leadership is ANF administrators--who make sweeping policy decisions--
do not have any ``skin in the game''; they make their decisions and 
move on while the citizenry within their jurisdiction must deal with 
the results.
    The preceding issues are examples of how the existing relationship 
between local and county government quickly becomes strained whenever 
the two parties enter into strategic discussions. The dynamics creating 
the dysfunction are many and varied, but if we fail to learn from the 
past we are destined to repeat it. We can be assured that the ANF 
administration will be required to perform planning activities in the 
future; how will county governments prepare themselves to effectively 
and efficiently interface with the ANF administration when that time 
arrives?
    Until the four counties of the Allegheny National Forest organize 
themselves into a consensus based unit, our individual efforts will be 
sub-optimized. The Commissioners must regularly meet and discuss to 
assess the current issues of the ANF within their respective counties, 
and then support each other as they forward their positions to the ANF. 
An emphasis must be placed on pro-active, forward thinking solutions 
which are coordinated between county governments and the Federal 
administrators.
(3.0) Proposed Strategy
Resolution of the Board of County Commissioners of the County of Warren 
        Within the Commonwealth of Pennsylvania
Resolution Asserting Legal Standing and Formally Requesting 
        Coordination With All Federal Agencies Maintaining Jurisdiction 
        Over Lands and/or Resources Located Within Warren County
    Whereas, Warren County is a public unit of local government within 
the Commonwealth of Pennsylvania and a three-member elected Board of 
Commissioners serves as its chief governing authority; and

    Whereas, Warren County Board of Commissioners is charged with 
supervising and protecting the tax base of the county and establishing 
comprehensive land use plans (including, but not limited to the County 
Comprehensive Plan) outlining present and future authorized uses for 
all lands and resources situated within the county; and

    Whereas, the Warren County Commissioners have designated the Warren 
County Planning and Zoning Commission as the lead agency for land use 
planning within Warren County, and the Planning Director serves as the 
chief point of contact and facilitator for those functions; and

    Whereas, Warren County is engaged in the land use planning process 
for future land uses to serve the welfare of all the citizens of Warren 
County; and

    Whereas, Warren County is comprised of approximately twenty-six 
percent (26%) federally held lands that are in the jurisdiction of the 
U.S. Forest Service; and

    Whereas, many citizens of Warren County historically earn their 
livelihood from activities reliant upon natural resources, and land 
which produces natural resources is critical to the economy of Warren 
County; and

    Whereas, the economic base and stability of Warren County is 
dependent upon commercial and business activities operated on federally 
owned, managed, and/or regulated lands that include, but are not 
limited to recreation, tourism, timber harvesting, oil, gas and mineral 
extraction, and other commercial pursuits; and

    Whereas, Warren County desires Federal agencies to inform the Board 
of Commissioners of all pending or proposed actions affecting local 
communities and citizens within Warren County and coordinate with the 
Board of Commissioners in the planning and implementation of those 
actions; and

    Whereas, coordination of planning and management actions is 
mandated by Federal laws governing land management including the 
Federal Land Policy and Management Act, 43 U.S.C.  1712, regarding the 
coordinate status of a county engaging in the land use planning 
process, and requires that the ``Secretary of the Interior [Secretary] 
shall . . . coordinate the land use inventory, planning, and management 
activities . . . with the land use planning, and management programs of 
other Federal departments and agencies and of the state and local 
governments within which the lands are located''; and

    Whereas, the coordination requirements of Section 1712 provide for 
special involvement by government officials who are engaged in the land 
use planning process; and

    Whereas, Section 1712 sets forth the nature of the coordination 
required with planning efforts by government officials and subsection 
(f) of Section 1712 sets forth an additional requirement that the 
Secretary ``shall allow an opportunity for public involvement'' 
(including local government without limiting the coordination 
requirement of Section 1712 allowing land or resource management or 
regulatory agencies to simply lump local government in with special 
interest groups of citizens or members of the public in general); and

    Whereas, Section 1712 also provides that the ``Secretary shall . . 
. assist in resolving, to the extent practical, inconsistencies between 
Federal and non-Federal Government plans'' and gives preference to 
those counties which are engaging in the planning process over the 
general public, special interest groups of citizens, and even counties 
not engaging in a land use planning program; and

    Whereas, the requirement that the Secretary ``coordinate'' land use 
inventory, planning, and management activities with local governments, 
requires that assisting in resolving inconsistencies to mean that the 
resolution process takes place during the planning cycle instead of at 
the end of the planning cycle when the draft Federal plan or proposed 
action is released for public review; and

    Whereas, Section 1712 further requires that the ``Secretary shall . 
. . provide for meaningful public involvement of state and local 
government officials . . . in the development of land use programs, 
land use regulations, and land use decisions for public lands''; and, 
when read in light of the ``coordinate'' requirement of Section 1712, 
reasonably contemplates ``meaningful involvement'' as referring to on-
going consultations and involvement throughout the planning cycle, not 
merely at the end of the planning cycle; and

    Whereas, Section 1712 further provides that the Secretary must 
assure that the Federal agency's land use plan be ``consistent with 
state and local plans'' to the maximum extent possible under Federal 
law and the purpose of the Federal Land Policy and Management Act and 
distinguishes local government officials from members of the general 
public or special interest groups of citizens; and

    Whereas, the Environmental Protection Agency, charged with 
administration and implementation of the National Environmental 
Protection Act (NEPA), has issued regulations which require that 
Federal agencies consider the economic impact of their actions and 
plans on local government such as Warren County; and

    Whereas, Since NEPA requires Federal agencies to consider the 
impact of their actions on the customs of the people as shown by their 
Federal beliefs, social forms, and ``material traits,'' it reasonably 
follows that NEPA requires Federal agencies to consider the impact of 
their actions on the rural, land and resource-oriented citizens of 
Warren County who depend on the ``material traits'' including 
recreation, tourism, timber harvesting, oil, gas and mineral 
extraction, and other commercial pursuits for their economic 
livelihoods; and

    Whereas, NEPA requires Federal agencies to consider the impact of 
their actions on the customs, beliefs, and social forms, as well as the 
``material traits'' of the people; and

    Whereas, it is reasonable to interpret NEPA as requiring Federal 
agencies to consider the impacts of their actions on those traditional 
and historical and economic practices, including commercial and 
business activities, which are performed or operated on federally 
managed lands (including, but not limited to recreation, tourism, 
timber harvesting, oil, gas and mineral extraction, and other 
commercial pursuits); and

    Whereas, 42 U.S.C.  4331 places upon Federal agencies the 
``continuing responsibility . . . to use all practicable means, 
consistent with other considerations of national policy to . . . 
preserve important historic, culture, and natural aspects of our 
national heritage''; and

    Whereas, Webster's New Collegiate Dictionary (at 277, 1975) defines 
``culture'' as ``customary beliefs, social forms, and material traits 
of a group; the integrated pattern of human behavior passed to 
succeeding generations''; and

    Whereas, in 16 U.S.C.  1604, the National Forest Management Act, 
requires the U.S. Forest Service to coordinate its planning processes 
with local government units such as Warren County; and

    Whereas, Federal agencies implementing the Endangered Species Act, 
the Clean Water Act, the Clean Air Act, and the Outdoor Recreation 
Coordination Act (16 U.S.C.  460I-1(c) and (d)) are required by 
Congress to consider local plans and to coordinate and cooperate 
directly with plans of local government such as Warren County; and

    Whereas, the coordinating provisions referred in this resolution 
require the Secretary of Interior to work directly with local 
government to resolve recreation, tourism, timber harvesting, oil, gas 
and mineral extraction, and other commercial pursuits with regard to 
uses of the Federal lands; and

    Whereas, the regulations issued by the Federal agencies in this 
resolution are consistent with statutory requirements of coordination 
and direct cooperation and provide implementation processes for such 
coordination and direct consideration and communication; and

    Now Therefore Be It Resolved that the Warren County Commissioners 
do hereby assert legal standing and formally requests coordination 
status with all Federal agencies maintaining jurisdiction over lands 
and/or resources located within Warren County.

    Be It Further Resolved that the Warren County Commissioners shall 
cause a copy of this Resolution to be transmitted to local, regional, 
state and/or national offices of all Federal and state agencies 
maintaining jurisdiction over lands and/or resources located within 
Warren County and to all Federal and state elected representatives 
serving Warren County.

    Be It Further Resolved that the Warren County Commissioners are 
authorized and hereby directed to publish a copy of this Resolution in 
the Warren Times Observer, a newspaper of general circulation printed 
and published in the County of Warren, Commonwealth of Pennsylvania.

    Adopted By The Board of Commissioners of the County of Warren on 
This Date.




John E. Eggleston,       Terry L. Hawk,           John R. Bortz, Jr.,
Chairman;                Vice Chairman;           Secretary.

Attest:

Pamela Matve,
Chief Clerk.


Protocol for Coordination Between Allegheny National Forest and 
        Allegheny County Coalition
Introduction
    The Allegheny National Forest, (ANF) and the Allegheny National 
Forest County Coalition (herein referred to as Coalition) have engaged 
in discussions regarding governmental interaction between ANF and 
Coalition. However, there had previously been no official protocol 
setting forth the process by which Coalition and ANF will engage in 
timely and meaningful process to work on issues of mutual concern.
    Both parties believe that it is important to execute a protocol 
documenting their commitment to an open, effective, government-to-
government relationship. In addition to fulfilling the coordination of 
requirements set forth under Federal statutes, the two entities hope to 
make better decisions, achieve efficiencies, enhance understanding and 
facilitate trust. It is their hope that this protocol will establish a 
means by which the two entities can work productively over time, as 
players and issues change and evolve.
    This protocol sets forth the process by which the Coalition and ANF 
expect to coordinate on issues of mutual interest and concern. It 
provides a venue for the Coalition and ANF to have direct 
communications and interactions. It also sets forth the process for 
making future adjustments to the protocol that is needed and mutually 
agreeable.
Mandate
    This protocol has been established to provide a forum for 
accomplishment of the USFS-to-local government coordination 
requirements of a variety of Federal laws, regulations and Executive 
Orders.
    Federal coordination requirements can be found in several Federal 
laws including the National Forest Management Act, Rangeland Renewable 
Resources Act, FLPMA and others, and in regulation.
    NFMA, 43 U.S.C. sec 1712(c)(9) provides that the preparation of 
forest plans will be ``coordinated with the land and resource 
management planning processes of State and Local Governments''
    40 CFR, 1502.16(c), 1506.2 requires the Forest Service to revise 
the Forest Plan not less than every 15 years and goes on to say.

          (a) The responsible line officer shall coordinate regional 
        and forest planning with the equivalent and related planning 
        efforts of other Federal Agencies, State and Local Governments 
        and Indian Tribes.
          (b) The responsible line officer shall review the planning 
        and land use policies of other Federal Agencies, Local 
        Governments, and Indian Tribes. The results of this review 
        shall be displayed in the environmental impact statement for 
        the Plan. The review shall include:

                  (1) Consideration for the objective of other Federal, 
                State, Local Governments and Indian Tribes as expressed 
                in their plans and policies.
                  (2) An assessment of the interrelated impacts of 
                these plans and policies:
                  (3) A determination of how each Forest Plan should 
                deal with the impacts identified and;
                  (4) Where conflicts with forest planning are 
                identified, consideration of alternatives for their 
                resolution.

          (c) In developing land and resource management plans, the 
        responsible line officer shall meet with designated State 
        Official (or Designee) and representatives of other Federal 
        Agencies, Local Governments and Indian Tribal Governments at 
        the beginning of the planning process to develop procedures for 
        coordination. At a minimum, such conferences shall also be held 
        after public issues and management concerns have been 
        identified and prior to recommending the preferred alternative.

    A program of monitoring and evaluation shall be conducted that 
includes consideration of the effects upon National Forest management 
of activities on nearby land managed by other Federal or other 
Government Agencies or under the jurisdiction of Local Governments.
    The Coalition and ANF also recognize that there may be occasions 
when the plans, studies, or management activities of ANF also invoke 
Federal Laws that also require coordination with the Coalition. 
Congress most clearly defined it's will for coordination between 
agencies and local governments at 43 U.S.C. 1712. It mandated that 
agencies ``shall . . . coordinate the land use inventory, planning, and 
management activities'' with local government. The definition requires 
the agencies, to the extent practical, keep apprised of all local land 
use plans (i.e., County Comprehensive Plans), assure consideration is 
given to the local plans, assist in resolving inconsistencies between 
local and agency plans, and provide for meaningful public involvement 
of local governments in the development of land use programs, land use 
regulations, and land use decisions including early public notice of 
proposed decisions. Federal land use plans shall be consistent with 
local plans to the maximum extent found consistent with the law.
Purpose of the Protocol
    The purpose of this protocol is to aid the implementation of the 
coordination required by law, regulation and executive orders currently 
in effect or yet to be enacted. It is designed as an upper level 
coordination effort, where management and policy level work is 
discussed and coordinated directly among the Commission and USFS 
Managers. This does not limit or preclude the Commission or USFS from 
communicating via other means, or activities, e.g., formal 
correspondence, comment or legal means if necessary; it is intended to 
address and coordinate issues early and in as simple a manner as 
possible.
Participants
    Within this forum, protocol participants include:

    1. County Commissioners comprising the ANF County Coalition.

    2. Representatives of the Commission.

    3. Legal or other Consultants designated as representatives of the 
        Coalition.

    4. Supervisor, Allegheny National Forest.

    5. District Rangers and Planners from Allegheny National Forest.
Decision-making
    Forum Decision-makers are the presiding Chairman of the Coalition, 
speaking the decision of the Coalition, and the Supervisor of ANF, 
speaking for the Allegheny National Forest.
    Decision-makers will work to reach agreement on matters of 
discussion. However, participants recognize that within the Coalition 
and ANF lay decision-making authorities and responsibilities to which 
they must be individually accountable. To that end, this forum will be 
used for coordination of the extent possible; however, the Coalition 
must make its decisions in a manner that complies with all requirements 
of Pennsylvania Code and the respective County Comprehensive Plans. 
Similarly, USFS may take potential decisions to the Regional Forester, 
where those decisions will be subject to that review for approval.
Staff & Consultants Role
    The Coalitions's consultants and ANF's staff will participate 
freely in discussion and presentation as determined by the Chairman of 
the Coalition and the Supervisor of the ANF, who each control the 
participation of their consultants and staff personnel.
    Decision-makers recognize that both entities have consultants and 
staff that work for them, advise them on specific issues, study issues 
and recommend action. Consultants and staff of both entities will 
communicate, coordinate and work together on a regular basis on issues 
of concern to both parties, but shall not make any decisions binding 
upon either entity.
Process
1. Pre-planning Sessions
    Pre-planning sessions will be normally scheduled on the first 
Wednesday of each calendar-year quarter (January, April, July, October) 
between the ANF County Coalition and the ANF administration. These 
sessions shall last 2 hours or until an agenda of issues has been 
developed. Meetings will be open, in accordance with the requirements 
of Pennsylvania Code, and the participants will conduct meeting work. 
Invited consultants and staff will participate per agenda/issue 
requirements. Others are free to observe.
2. Agenda Development
    The Executive Committee of the ANF County Coalition and the ANF 
administration will develop the agenda for each meeting. They will 
design the meeting agenda based on the proposed and prioritized agenda 
items and in consideration of the available meeting time. Agendas will 
be finalized and distributed to participants no less than 1 week before 
the upcoming meeting. At each meeting, by mutual agreement, forum 
participants may add agenda topics and prioritize future agenda items.
3. Meeting Management and Facilitation
    The ANF County Coalition will maintain a meeting record that 
includes the:

    a. Meeting date, time, location and participants.

    b. Topic discussed, list of concerns & outcome, including areas of 
        agreement.

    c. Agenda topics for the next meeting.

    d. Action items.

    The notes of record will be reviewed as the first agenda item at 
the subsequent meeting for potential revision and approval.
4. Briefing Sheets
    A briefing sheet will be prepared by the ANF administration and/or 
ANF County Coalition (and/or staff) when (1) they are presenting and 
discussing a proposed action by either of the parties. (2) They bring a 
proposal to this group for discussion by this group, and/or (3) They 
are presenting and discussing a topic for which feedback is requested. 
Briefing sheets may include description of issues, background, 
alternatives, resolutions, etc. Briefing sheets will be provided before 
the meeting along with the agenda to forum participants. On issues that 
are complex or may be controversial a briefing sheet will be provided 
no less than 1 week prior to the meeting to allow for adequate staffing 
of the issue.
5. Issue Identification and Resolution
    The forum will work collectively on agenda items to define issues 
and concerns, consider alternatives, and strive for agreement on issue 
resolution and follow-up actions. Considering that a wide range of 
issues will be included in the process, different methods may be 
appropriate to resolve issues of differing degrees of complexity or 
concern. Communication and information sharing between meetings is 
necessary to keep all parties informed, minimize misunderstandings, 
avoid surprises and resolve potential conflicts as quickly as possible. 
Therefore, any of the following options, or others as mutually agreed 
to by the forum, may be used to coordinate a given proposal or issue:

    a. Participants will always have the option of responding 
        immediately to proposals or issues that do not require further 
        evaluation. This option will help to avoid unnecessary 
        deferring simple or non-controversial topics.

    b. Where mutually acceptable to Coalition and ANF, coordination may 
        be completed and documented by staff-to-staff communications 
        before the next meeting, but final decisions rest with 
        decision-makers.

    c. Where further evaluation is needed, continuing discussion and 
        resolution may be scheduled for the next meeting.

    d. Issues may be referred to staff for review and recommendation 
        and addressed again at a later meeting.

    e. For an issue of special concern to either party, a special added 
        meeting of the interested parties, a telephone conference call 
        or a field tour may be scheduled to complete the process, on 
        mutually agreed upon terms.

    f. For a very sensitive/confidential issue, an executive session 
        may be scheduled for the Coalition and ANF and any necessary 
        consultants or staff of the respective parties to discuss the 
        issue as long as Pennsylvania Code allows such executive 
        session.

    g. As to any issue, resolution of which requires formal approval by 
        the Coalition, a decision will have to await a regular 
        Coalition meeting or specifically noticed meeting of the 
        respective Boards.
6. Unresolved issue
    In the event participants cannot articulate a clear consensus of 
agreement on a given topic, the Coalition and the ANF will prepare a 
one-page paper outlining the issue; any potential areas of agreement, 
and the reasons for the lack of resolution in a manner that is 
equitable (in tone and space) to both entities. Both entities will 
confirm that the document accurately reflects its perspectives.
7. Action items
    For discussion requiring more than one meeting, participants will 
articulate and implement follow-up action items by identifying action, 
responsible person and deadline. Those action items will be reviewed 
and confirmed by the group before adjourning a given meeting. Absent 
highly sensitive or significant issues or concerns, follow-up will not 
exceed 1 month from the time it is initiated, unless mutual agreement 
is reached that a field tour or other action is needed that would 
require additional time.
Protocol Revisions
    The process will continue to evolve, but the basic premise will 
remain as expressed in this protocol. The process will be reviewed for 
potential revision on an annual basis.

 As Indicated by the Signature Affixed Below, This Protocol Is Mutually
    Acceptable to the Warren County Commission and Allegheny National
                                 Forest.



-----------------------------------  ----
 -------                             Date
Chairman, Warren County Commission

-----------------------------------  ----
 -------
Vice Chairman, Warren County         Date
 Commission

-----------------------------------  ----
 -------
Secretary, Warren County Commission  Date

-----------------------------------  ----
 -------
Allegheny National Forest            Date
 Supervisor

Attest: ______________

       Warren County Chief Clerk

Date:  ______________



    The Chairman. Thank you.
    Mr. Guthrie.

    STATEMENT OF STEVE GUTHRIE, WOODLANDS MANAGER, NICOLET 
              HARDWOODS CORPORATION, LAONA, WI; ON
           BEHALF OF LAKE STATES LUMBER ASSOCIATION;
                      HARDWOOD FEDERATION

    Mr. Guthrie. Chairman Thompson, Honorable Congressman 
Holden, and Honorable Congressman Ribble, I just want to thank 
you for allowing me the opportunity to speak with you this 
morning. I am humbled by the opportunity because I am not only 
representing Nicolet Hardwoods Corporation, Lake States Lumber 
Association, and the Hardwood Federation, but in a very real 
way I feel more largely I am representing the hardworking 
people in the forest industry of Wisconsin, Michigan, and 
Minnesota that make up the Great Lakes States. It is humbling 
to have the opportunity to address you on this issue. It is one 
that has been near and dear to my heart for about 20 years as I 
have tried to work with the Forest Service in northwestern 
Wisconsin and upper Michigan in my 34 years as a professional 
forester.
    I think the host helpful thing I can do this morning is to 
try and give you a boots-on-the-ground picture of how the 
Forest Service is affecting not only our economy and our local 
businesses, but our industry at large. I really believe that 
the best example I can give of my experience this morning is in 
giving a little background on the forest that I now manage for 
Nicolet Hardwoods.
    We have about a 35,000 acre hardwood forest that has a 100 
year management plan on it. It has been thinned up to eight 
times per stand, and it is growing the most beautiful northern 
hardwood saw timber that can be grown on the property. It has a 
climax tree, the sugar maple, making up about 50 percent of the 
forest volume, and that is our high-value species for veneer 
logs and saw logs.
    And just something I will get to later as a reason, but on 
our hardwood logs, veneer logs sell for approximately $1,200 
per thousand board feet, while saw logs only sell for about 
$400 per thousand board feet. So three times the value is in 
these high-value-grade logs that we are trying to produce 
through select management on our hardwood stands.
    Currently, my company is managing two mills, one in 
Michigan, one in Laona, Wisconsin. Between the two, we are 
using about 22 million board feet a year. Currently, we are 
having to import 20 percent of those needs from Canada because 
we cannot get enough domestic saw timber.
    Right next door to this 35,000 acre forest that we manage 
is the Chequamegon-Nicolet National Forest. And unfortunately, 
they have hardwood saw timber the same age that we have but is 
not being managed, and there is a night and day difference in 
the quality. A hard maple tree, when it reaches maturity, 
starts to get a bigger and bigger heart until after 50 percent 
heart that tree is no longer valuable for veneer log timber. So 
the Forest Service, by not managing that timber, is allowing 
the value to just deplete down and down and down. And there is 
no reason for that. We have all kinds of people in the area 
that are in the logging business, in the forest products 
business that can produce this wood for us, and they are not 
being given the chance.
    And if that sounds overstated, let me just give some 
numbers on what the Chequamegon-Nicolet is producing and 
harvesting. Annual growth, 251 million feet a year, annual 
mortality, 122 million feet a year; annual harvest, 72 million. 
So the mortality is almost double harvest and almost half of 
the annual growth. That is a terrible waste of a beautiful 
resource. And the low harvest volume leaves nearly 60 million 
feet of timber unharvested every year. That could create a huge 
revenue benefit to the Treasury, it could create thousands of 
jobs and thousands and thousands and millions of dollars of 
economic value-added opportunity.
    Currently, that 60 million feet at a saw log value would 
bring about $18 million of additional timber revenue from the 
Chequamegon-Nicolet, would produce $748 million in value-added 
economic activity and 3,000 new jobs. That is sustainable every 
year.
    A recent Minnesota DNR study showed that $1 of timber 
revenue produces $41.60 of value-added economic activity. Now 
just imagine if we took that $18 million off the Nicolet and 
multiplied it times our over 100 National Forests--how many 
jobs and billions of dollars could be created from harvesting 
that timber.
    I would just like to conclude by saying, in my experience, 
it is possible to do both good, intensive timber harvesting and 
good ecological sustainable management for the protection of 
our resources. I know that for a fact. And that is what we need 
to do this morning is find out a way that we can all work 
together to make this plan accomplish that.
    Thank you.
    [The prepared statement of Mr. Guthrie follows:]

    Prepared Statement of Steve Guthrie, Woodlands Manager, Nicolet
   Hardwoods Corporation, Laona, WI; on Behalf of Lakes States Lumber
                    Association; Hardwood Federation
    Good morning, my name is Steve Guthrie. I am here this morning 
representing the Nicolet Hardwoods Corporation, the Lakes States Lumber 
Association, and the Hardwood Federation. I have spent my entire career 
as a professional forester in the Forest Products Industry in Northern 
Wisconsin and the Upper Peninsula of Michigan.
    Our northern forest has possibly the broadest variety of tree 
species in the country, including nine coniferous species climaxing in 
the majestic White Pine, 16 deciduous hardwood species climaxing in 
Sugar Maple, and even one species that is both coniferous and 
deciduous, the Eastern Larch or Tamarack.
    My company, Nicolet Hardwoods Corporation, owns and manages a 
35,000 acre hardwood forest in Wisconsin and Upper Michigan. As part of 
a fifth generation family-owned business, the company forest has been 
managed to produce high-quality northern hardwood timber through 
single-tree selection cutting for nearly 100 years. Some of our 
hardwood stands have been cut on a 10 year cycle eight times.
    Through the intensive forestry practices I have helped to implement 
on Nicolet's lands, and over 250,000 acres of other industrial forest, 
I have learned that intensive timber harvesting and ecological 
sustainability are not mutually exclusive. To the contrary, over 53,000 
acres of these same forestlands have been maintained in such excellent 
condition that they have attracted conservation easements through the 
Federal Forest Legacy Program and the Wisconsin Stewardship Fund.
    Unfortunately, the Proposed Rule under consideration today seeks to 
take the National Forest System further down the road where timber 
harvesting takes a back seat to landscape concerns, forest restoration, 
and nearly every current scientific concern except timber management. 
If that sounds over-stated, I would refer to page 8509 under Analysis 
and Decisions where ``Less prescriptive descriptions of timber 
harvests, sale schedules, and management practices under the proposed 
rule may provide greater flexibility for units to develop more adaptive 
plans capable of responding to uncertain vegetation management and 
restoration needs''. With agency budgets declining, this proposed Rule 
actually imposes a number of costly processes and procedures on the 
Forest Service: a new planning layer of assessments (Sec. 219.6), more 
monitoring (Sec. 219.12), and the almost impossible requirement to 
demonstrate that a forest plan will ``maintain viable populations of 
species.''
    Much of the proposed assessment and monitoring is directed toward 
climate change. Isn't it ironic that carbon sequestration is most 
effective in younger thrifty stands of trees, but the Forest Service is 
continuing to manage older and older stands of decadent trees through 
lack of harvest? These older trees actually give off net emissions of 
CO<INF>2</INF> into the atmosphere. In contrast, a University of 
Wisconsin study found that sustainably-managed northern hardwood 
forests are sequestering 1.5 tons per acre per year of CO<INF>2</INF>, 
while returning oxygen to the atmosphere and making a significant 
contribution to the economy.
    There is one thing I am certain of: If we do not set out specific, 
prescriptive timber harvest criteria in the proposed rule, we will not 
improve the current failure of the Forest Service to manage their 
Allowable Sale Quantity (ASQ). In Wisconsin our local forest, the 
Chequamegon-Nicolet, is one of the more active forests in the system, 
and it harvests only about 50% of its ASQ. Unfortunately, this harvest 
consists predominantly of low quality red pine plantation wood, while 
over 600,000 acres of northern hardwood forestland is being neglected 
and allowed to rot. This lack of timber production is having a high 
cost in lost jobs and revenues in the local economy, but it is also 
exporting our demand for wood to other public and private forestland, 
and even to other countries less capable of managing that demand. Our 
company is currently importing 22% of our wood supply, while U.S. 
Forest Service lands are off limits.
    The juxtaposition of purposes on page 8509 is quite revealing, 
because the very next sentence after being less prescriptive regarding 
timber harvests, outlines the new plan's direction away from timber 
management: ``Slight cost increases for science support may occur under 
the proposed rule due in part to more prescriptive language to take 
into account the best available scientific information when preparing 
assessment reports, plan decision documents, and monitoring evaluation 
reports''. So while pursuing the latest scientific information on 
climate change, forest restoration, or the latest vogue in ecology, the 
Forest Service proposes to be less prescriptive regarding this most 
fundamental scientific fact: Every forest has an annual growth and 
mortality rate. By keeping a healthy balance between growth and annual 
harvest (the purpose of the ASQ) the mortality rate is minimized. 
Shamefully, today many of our National Forests have a higher rate of 
mortality than harvest. The Chequamegon-Nicolet in Wisconsin has 
251MMBF of annual growth, 122MMBF of annual mortality, and only 72MMBF 
of annual harvest. This is an extravagant waste of a precious renewable 
resource!
    Further evidence of the plan's trend away from timber management is 
found on page 8510 under Monitoring where ``Monitoring under the 
proposed rule focuses to a greater extent on ecosystems, habitat 
diversity, and small numbers of focal species.'' Again, where is any 
emphasis given to meeting timber outputs, monitoring timber mortality, 
or assessing the economic impacts of under-harvesting the ASQ?
    To the contrary, under ``Distributional Impacts'' on the same page, 
8510, the proposed plan states ``Due to the programmatic nature of this 
rule, it is not feasible to assess distributional impacts (e.g., 
changes in jobs, income, or other measures for socioeconomic conditions 
across demographics to economic sectors) in detail.'' In other words, 
don't bother the agency with the burden of assessing the negative 
economic impacts of under harvesting, because they will be too busy 
accomplishing the following objective from the same section: ``The 
proposed rule is more prescriptive about considering and facilitating 
restoration of damaged resources as well as improving resource capacity 
to withstand environmental risks and stressors.''
    Given the current high unemployment rate in our country, it is very 
important that we assess the value of our available forest resources 
and the number of jobs those resources can provide. A recent analysis 
by the Minnesota DNR found that $1 of timber value produced $41.60 of 
value-added economic activity. By one rule of thumb, every 20,000 board 
feet of timber harvested provides enough raw material to support one 
job in the forest products industry. At those rates, the Chequamegon-
Nicolet's unharvested Allowable Sale Quantity (ASQ) of 60MMBF could 
produce $18 million of additional timber revenue, $748.8 million of 
value-added economic activity, and 3,000 additional jobs every year!
    Whatever happened to common sense where the physical needs of 
society and the wise use of our natural resources were given at least 
equal importance with our desire to maintain a healthy environment? 
Again, in my experience the two are not mutually exclusive. We must 
find a way to strike a balance in this proposed rule that will 
accomplish both. The future of our National Forests and the health of 
our country depend on it.

    The Chairman. Thank you, Mr. Guthrie.
    Mr. Shannon, I look forward to your testimony.

         STATEMENT OF JOHN T. SHANNON, VICE PRESIDENT,
  NATIONAL ASSOCIATION OF STATE FORESTERS; FORESTER, STATE OF 
                   ARKANSAS, LITTLE ROCK, AR

    Mr. Shannon. Good morning, Mr. Chairman. How are you today?
    I am the State Forester of Arkansas, and this planning rule 
is really important. So I want you to know how much we 
appreciate you just making time for this hearing today. Thank 
you, sir.
    And even though I am from Arkansas, I did want the chair 
and the Ranking Member to know that my mom and dad lived in 
Lewistown for years and years. Is that one of your districts?
    The Chairman. I spotted you as a quality individual.
    Mr. Shannon. That would be my mom and dad who were quality. 
Mom taught at a Catholic grade school there for years and dad 
worked at the steel mill in Lewistown. So I like Pennsylvania.
    And I want to thank the Forest Service. They have been 
really open in this rulemaking process. They have not just 
accepted comments from the State Foresters, they have really 
solicited our comments. And Forest Service officials have been 
briefing us on the status of the rulemaking. So we have a great 
relationship with the Forest Service, and I appreciate them 
keeping us in the loop here.
    There are three recommendations that the State Foresters 
have. The first one is coordination. And I have heard some of 
the Members already say that wildfires and bark beetles ignore 
property boundaries. So it is really smart for forest-owning 
neighbors to work together on addressing forestry issues.
    The farm bill directed State Foresters to identify the 
primary forestry issues in our states, and we have all done 
that work. So as the National Forests prepare their new plans, 
I think it is really important that they understand the issues 
that we have already identified under the farm bill and let us 
coordinate our efforts to meet those priority issues.
    The second recommendation deals with the role of science. 
We all accept how essential it is to use sound science in 
forest management. We also know that the science evolves, the 
science has developed over the decades, and you can have two 
really smart forest scientists who disagree on an issue. I 
think it is important to remember that the forester or the 
technician who has been working on the ground, who has a really 
good knowledge of his ranger district, we need to give some 
deference to the professional opinions of those local Forest 
Service employees. I understand that there will be a new 
standard if this rule is adopted, and it is the best available 
science standard, which includes a very heavy documentation 
requirement.
    Right now the courts give a lot of discretion to the 
technical decisions of the Forest Service, and that is 
appropriate because there are very technical scientific issues 
and the courts recognize that special knowledge. If we shift to 
a best available science, I think that places at risk the 
deference that the courts have given to the Forest Service. So 
the State Foresters would caution the Forest Service to be 
really careful what you ask for here. You don't want to lose 
that deference from the courts.
    And the last issue pertains to sustainability, and I have 
heard Members raise this issue, too, and my colleagues on this 
panel. I think everybody agrees there is ecological 
sustainability and social and economic, and I understand that 
the Forest Service is really focusing on the ecological 
sustainability. I understand that because if you screw up the 
integrity of a forest, those other benefits will not flow. You 
have to have environmental, ecological soundness.
    I really hope, however, that the Forest Service gives equal 
credit to economic sustainability. And if I were writing this 
plan, I would use the word ``jobs'' 100 times and I wouldn't be 
embarrassed about it. I live and work in a rural state. The 
National Forests in Arkansas are drivers for jobs in rural 
America. We have sort of figured out how to get that done in 
Arkansas; it sounds like we need to do that a little bit more 
in other parts of the country. So ecological sustainability is 
the threshold; we need to have that, but boy, I would really 
push for economic sustainability, too, not just because we are 
in a tough time now, but you can really sustain whole 
communities for generations through the work of National 
Forests.
    Mr. Chairman, I sure appreciate your time today. Thank you, 
sir.
    [The prepared statement of Mr. Shannon follows:]

    Prepared Statement of John T. Shannon, Vice President, National
  Association of State Foresters; Forester, State of Arkansas, Little 
                                Rock, AR
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the House Committee 
on Agriculture, Subcommittee on Conservation, Energy, and Forestry 
regarding the USDA Forest Service Proposed Rulemaking for a new 
National Forest System Land Management Planning Rule. NASF represents 
the directors of the state forestry agencies in all fifty states, eight 
territories and associated states, and the District of Columbia. State 
Foresters manage and protect state and private forests across the U.S., 
which encompass \2/3\ of the nation's forests and enjoy a longstanding 
working relationship with the USDA Forest Service. We offer the 
following general comments on the planning rule as well as state 
perspectives on coordinating planning decisions with non-Federal 
ownerships, the role of science in planning and decision-making, the 
interdependent elements of sustainability, and monitoring and adaptive 
management.
General Comments
    The Forest Service manages 155 National Forests and 20 grasslands 
encompassing an area of 193 million acres that comprise the National 
Forest System (NFS). State Foresters have a strong interest in the 
planning rule given the threat of wildfire and insect and disease 
outbreaks that face the National Forest system also pose risks to 
adjacent forest land owned and managed by states, tribes, forest 
industry, families and other owners. A coordinated approach that spans 
across ownerships is necessary to ensure these challenges do not 
further impair the ability of the nation's forests to deliver clean and 
abundant water, clean air, wildlife habitat, wood products, recreation 
and other important values that all Americans appreciate. State 
Foresters stand ready to work with the USFS to help ensure management 
activities within the NFS are coordinated with other non-Federal 
ownerships.
    The ultimate measure of success of any planning rule will be on-
the-ground accomplishments that improve forest health and the economic 
well-being of local communities. To be successful, a planning rule must 
afford enough flexibility for regions and each National Forest to 
address their unique set of issues while providing a solid framework 
for management activities needed to ensure ecological, social and 
economic sustainability. We believe that State Foresters should play a 
unique role in the USFS planning process. As outlined below, we have 
several suggestions as the Forest Service finalizes a new planning rule 
that will help the agency take advantage of local expertise while 
implementing Secretary Vilsack's ``All-lands'' vision.
Coordinating Planning Decisions with Non-Federal Ownerships
    The threat of wildfire and insect and disease outbreaks that face 
the National Forest system also pose risks to adjacent forest land 
owned and managed by states, tribes, forest industry, families and 
other owners. A coordinated approach that spans across ownerships is 
necessary to ensure these challenges do not further impair the ability 
of the nation's forests to deliver clean and abundant water, clean air, 
wildlife habitat, wood products, recreation and other important values 
that all Americans appreciate.
    An important outcome of the 2008 Farm Bill called for state 
forestry agencies to complete Statewide Forest Resource Assessments and 
Strategies (Forest Action Plans). The assessments provide an analysis 
of forest conditions and trends in the state (regardless of ownership) 
and delineate priority rural and urban forest landscape issues and 
areas. The strategies provide long-term plans for investing state, 
Federal, and other resources to where they can most effectively 
stimulate or leverage desired action and engage multiple partners. 
These Forest Action Plans were developed through a collaborative 
process involving other Federal agencies (including responsible 
officials from the NFS), state and local government, Indian tribes, 
citizens and interest groups and will be updated periodically. 
Addressing priority issues related to impairments to forest watersheds; 
fire, fuel loads and the wildland-urban interface; and forest health, 
resilience, and sustainability will take a coordinated effort across 
ownerships and landscapes. We strongly believe that activities on the 
NFS should be coordinated with those outside of NFS boundaries in a way 
that responds to these (and other) priority issues identified in the 
Forest Action Plans.
    NASF supports language found in the 1982 planning rule which states 
that ``[t]he responsible line officer shall coordinate regional and 
forest planning with the equivalent and related planning efforts of 
other Federal agencies, state and local governments, and Indian 
tribes.'' We also believe the Resource Management Planning regulations 
for the Bureau of Land Management (43 CFR  1610.3-1) provide an 
example of stronger language relative to coordination and collaboration 
with other Federal, state and local governments and Indian tribes. The 
BLM planning regulations provide flexibility to address inconsistencies 
between Federal and non-Federal Government plans, to develop management 
plans in collaboration with cooperating agencies, and further mandates 
that plan developers invite outside agencies to participate as 
cooperating agencies and that other Federal, state and local and Indian 
tribes are provided ``opportunity for review, advice, and suggestion on 
issues and topics which may affect or influence other agency or other 
government programs.''
Role of Science in Planning
    Forestry has been defined as the science, art and practice of 
creating, managing, using, and conserving forests and associated 
resources for human benefit and in a sustainable manner to meet desired 
goals, needs, and values.\1\ Science provides the essential foundation 
in forest planning; yet, our understanding of the ecological, economic 
and social components of forestry is continually evolving as conditions 
change across the landscape. We fully endorse the use of science by 
responsible officials on the NFS and believe the planning rule should 
not discount the experience and training of professional resource 
managers to deal with changing conditions in light of incomplete 
information.
---------------------------------------------------------------------------
    \1\ Helms. J.A. (Ed.) 1998. Dictionary of Forestry. Bethesda, MD: 
Society of American Foresters.
---------------------------------------------------------------------------
    The proposed rule introduces a new standard that requires the 
responsible official to consider the best available scientific 
information in decision-making. Responsible officials are to document 
the process, sources and type of information considered in reaching the 
determination as to what constitutes the most accurate, reliable and 
relevant scientific information. While the acknowledgment of the 
important role of science in preparing forest plans is laudable, we 
have concerns that the best available science standard will introduce 
legal challenges that will stand in the way of improving the management 
of NFS lands and create a new and substantial workload for the 
responsible official.
    Disputes over competing science have significant potential to 
further delay the planning process. These disputes will often be driven 
by uncertainty in the extrapolation and application of science to large 
landscapes such as the National Forests. There is often more than one 
divergent scientific viewpoint that can be used to inform management 
decisions. While we agree that scientific debate is healthy in trying 
to determine a measure of certainty in management planning, we hold 
concerns that these disputes will be settled through litigation while 
further delaying needed action to improve the health of the NFS.
    The best available science standard also has the potential to place 
the responsible official in a difficult position of having to marshal a 
large number of discrete studies into a planning document to support 
management decisions. The standard creates a new and substantial 
workload for the responsible official to document each and every 
scientific study considered at least every 2 years when compiling the 
monitoring and evaluation report and during any forest plan revision, 
amendment or assessment process. The proposed rule calls on the 
responsible official to demonstrate that the most accurate, reliable 
and relevant information for any given decision was appropriately 
considered in reaching planning decisions. We are concerned that the 
duty to demonstrate that the best available science was considered in 
planning decisions could prove costly and result in the agency having 
plans challenged.
    Given the possible complications with the best available science 
standard that we have outlined, we are concerned that this standard may 
ultimately cause additional expense in both agency time to meet the 
documentation standards, in defending against possible attacks to the 
sufficiency of the documentation itself, and in meeting a new burden of 
proof in court. We support the greatest deference afforded to Federal 
agencies to make decisions involving scientific determinations afforded 
under the Administrative Procedures Act. We recommend that the planning 
rule rely on standards covering the use and dissemination of scientific 
information found in the Federal Data Quality Act (P.L. 106-554  515) 
and subsequent guidelines from the Office of Management and Budget.\2\ 
The Federal Data Quality Act provides protections and assurances for 
the quality of scientific information used and distributed by Federal 
agencies and we believe that reliance on the provisions of the Federal 
Data Quality Act would alleviate the concerns over the potentially 
costly and controversial standard included in the proposed rule.
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/omb/fedreg_reproducible.
---------------------------------------------------------------------------
Interdependent Elements of Sustainability
    The decline in a healthy forest-based industry throughout much of 
the country is a factor contributing to the decline in the social and 
economic benefits flowing from NFS lands. The growing threats to the 
ecological sustainability commonly associated with a lack of active 
management on Federal lands include fires outside the historical range 
of variability and spread of native and invasive pest species at 
historic levels.
    The NASF supports a planning rule that considers the economic, 
ecological and social elements of sustainability as interdependent 
systems. These three factors cannot be ranked in order of importance 
and elevating one consideration will result in the disparate treatment 
of others. We believe the agency is not limited to influencing the 
ecological sustainability of NFS lands and has significant potential to 
provide for the economic and social well-being of forest-based 
communities. For instance, there are significant opportunities to enter 
into long-term stewardship contracts (and other contracting 
authorities) that provide jobs and help restore the health and 
productivity of the National Forests.
Monitoring
    The NASF continues to be supportive of adequate monitoring to 
support the adaptive management framework necessary on the National 
Forest system. Monitoring frameworks should provide for assessing 
forests across all ownerships and should take advantage of the Forest 
Action Plans completed by state forestry agencies. We hold concerns 
that broader-scale monitoring strategies that may incorporate data from 
the Forest Inventory and Analysis program will be unable to adequately 
monitor for changes to forest species composition, forest growth rates, 
wildfire risk, wildlife habitat, and other relevant trends across all 
ownerships. At the funding levels proposed in the President's FY12 
budget, the FIA program would be eliminated in several states, and 
others would see their FIA program scaled back through longer time 
intervals between successive inventories or elimination of higher 
resolution monitoring projects. We support efforts by the agency to 
leverage the monitoring being conducted by other government and non-
governmental entities and believe this is an opportunity for State 
Foresters and Forest Action Plans to play an important role in forest 
planning efforts. We strongly believe that collaboration is an 
important part of continuing to improve the efficient and effective use 
of limited monitoring resources.
Conclusion
    The groundwork to accomplish Secretary Vilsack's ``All-lands'' 
vision has been laid through the development of the Forest Action 
Plans. We look forward to the agency's next steps to operationalize--
through the planning rule--the Secretary's vision by coordinating 
activities on the National Forest system with those on adjacent 
ownerships to address priorities identified in the Forest Action Plans. 
We greatly appreciate the invitation from the Subcommittee to submit 
written testimony on the new planning rule and would also like to 
recognize the hard work that the planning rule team at the USFS.

    The Chairman. Thank you, Mr. Shannon.
    Mr. Terrell.

           STATEMENT OF JACK TERRELL, SENIOR PROJECT
           COORDINATOR, NATIONAL OFF-HIGHWAY VEHICLE
              CONSERVATION COUNCIL, AUBURNDALE, FL

    Mr. Terrell. Chairman Thompson, Ranking Member Holden, 
Congressman Ribble, thanks for the opportunity to allow me to 
testify about the concerns of the motorized recreation 
community regarding the Forest Service Proposed Land Management 
Planning Rule. As indicated in the introduction, I am Senior 
Project Coordinator for the National Off-Highway Vehicle 
Conservation Council, which is a real mouthful. We are a 
national organization, a 501(c)(3) education foundation, and we 
develop a wide spectrum of educational programs and materials 
that are available for individuals, clubs, associations, and 
government agencies in order to further a positive future for 
responsible OHV recreation.
    As we know, the forest plans provide broad guidance for 
planning specific projects and activities, including both 
motorized and non-motorized recreation. As a result, the 
planning rule and its subsequent implementation can have a 
dramatic effect on the number and quality of OHV recreation 
opportunities. We are concerned that this will inhibit 
motorized recreation, it will be very difficult to implement, 
and it will also be burdensome and very costly to implement. We 
see an awful lot of words and verbiage in the proposed rule 
that we feel are going to lead to just exhaustive legal 
challenges to the rule.
    As a citizen who has personally invested hundreds, if not 
thousands, of volunteer hours participating in many Forest 
Service planning processes to identify and manage trail 
systems, I must tell you that the recreation public is 
frustrated by what seems to be a never-ending series of new 
plans that constantly change the ground rules and leave the 
impression that public input is ignored or discounted. It seems 
that each new process is formulated to restrict OHV trail 
opportunities and totally ignore the resultant negative impact 
on jobs and economic development in rural communities. I have 
heard a lot of testimony about the importance of timber 
production. Recreation opportunities produce revenue to the 
local rural communities, and recreation needs to be considered 
on an equal level with the other elements of the plan.
    As I have noted in my written testimony, when the initial 
Notice of Intent was issued, recreation was barely mentioned in 
it and we and many other recreation groups banded together and 
submitted comments on that. And we are encouraged that 
recreation now is at least mentioned in the planning rule, but 
we are concerned that the proposed rule includes provisions 
that minimize the importance of recreation and allows 
preservation to override recreation and economic factors. And 
this is definitely in contradiction to the Multiple-Use 
Sustained-Yield Act, which directs that the National Forest be 
managed under the principles of multiple use, including 
recreation.
    We are concerned that the draft includes many undefined or 
ill-defined terms that are ambiguous at best and will be a 
magnet for litigation. We have heard earlier testimony about 
the term sustainable recreation and socially sustainable. We 
see those terms as being terms that will be litigated another 
30 years into the future. We also see terms like aesthetic 
value; spiritual, educational and cultural sustenance; and 
spatial mosaic which also are indefinable in the context of 
regulation.
    After decades of litigation and numerous attempts to 
develop a workable planning rule, the Forest Service should 
focus on producing a rule that is clear and relies on 
recognized defined terms, not creating vague terminology that 
will result in anti-access advocates asking courts to limit 
recreation based on their own interpretation of these terms.
    Also mentioned earlier is the costly and burdensome element 
of the requirement to utilize best available science, and I am 
not going to delve into that because we have heard that from 
the other members that have been testifying.
    We are extremely concerned about the inclusion of the 
viable population provision in the rule. The Forest Service 
acknowledged that it didn't work in the 1982 rule, and it seems 
like they are making it more ambiguous and more difficult to 
implement.
    And I would also urge the Subcommittee to urge the Forest 
Service to extend the comment period for the draft rule beyond 
May 16. The rule is extremely complex. And although issued in 
February, the draft Environmental Impact Statement for the rule 
was not issued until April 21, less than 3 weeks ago, and it is 
impossible to do a complete analysis of that EIS in such a 
short period.
    I will close by noting that the OHV community, NOHVCC, my 
family, and myself as a long-term rider, have a vested interest 
in the implementation of a successful planning rule, and we 
hope that the final rule resolves the issues that I have 
identified that will unnecessarily restrict recreation or 
otherwise make the rule unworkable or unenforceable.
    Thank you for your time.
    [The prepared statement of Mr. Terrell follows:]

    Prepared Statement of Jack Terrell, Senior Project Coordinator, 
   National Off-Highway Vehicle Conservation Council, Auburndale, FL
    Chairman Thompson, Ranking Member Holden, and distinguished Members 
of the Subcommittee on Conservation, Energy and Forestry, thank you for 
the opportunity to testify about the concerns that the motorized 
recreation community has with the Forest Service's proposed Land 
Management Planning Rule. I am Jack Terrell, Senior Project Coordinator 
for the National Off-Highway Vehicle Conservation Council, a national 
body of off-highway vehicle (OHV) recreation enthusiasts, that develops 
and provides a wide spectrum of programs, materials and information, or 
``tools,'' to individuals, clubs, associations and agencies in order to 
further a positive future for responsible OHV recreation.
    Forest Plans provide broad guidance for planning of specific 
projects and activities, including both motorized and non-motorized 
recreation. As a result, the Land Management Planning Rule and its 
subsequent implementation can have a dramatic effect on the number and 
quality of sustainable OHV recreation opportunities. NOHVCC and the OHV 
community at large are concerned that the Forest Service's current 
proposed rule will lead to the development of Forest Plans that will 
inhibit motorized and other forms of recreation, be difficult, 
burdensome and costly to implement, and most likely will lead to 
exhaustive legal challenges. As a citizen who has invested hundreds, if 
not thousands, of volunteer hours participating in Forest Service 
planning processes to identify and manage trail systems, I must tell 
you that the recreation public is frustrated by what seems to be a 
never-ending series of ``new'' plans that constantly change the ground 
rules and leave the definite impression that public input is either 
ignored or downgraded. It seems that each new process or rule is 
formulated to further restrict OHV trail opportunities, and totally 
ignore the negative economic impact of such decisions on jobs or 
economic development in rural communities.
    An initial concern of both the OHV community and the recreation 
community at large was that the Notice of Intent to develop the rule 
scarcely mentioned recreation. As a result, NOHVCC joined with other 
recreation groups to encourage the Forest Service to more meaningfully 
address recreation in the proposed rule, and we appreciate that the 
draft rule does, in fact, recognize that recreation plays a role on 
National Forests. We are disappointed, however, that the proposed rule 
clearly provides that preservation trumps social and economic factors, 
including recreation, contradicting the Multiple-Use Sustained-Yield 
Act (MUSYA), which directs that the National Forests be managed under 
principles of multiple use and to produce a sustained yield of products 
and services. We are concerned that this will mean that Forest Plans 
will heavily favor locking out recreation instead of maintaining and 
creating sustainable recreation opportunities that support the economy 
of local communities.
    We are also concerned that the draft includes many undefined or 
ill-defined terms that are ambiguous at best and will be a magnet for 
litigation. For example, the draft repeatedly refers to ``sustainable 
recreation.'' NOHVCC believes that all recreation should be 
``sustainable'' and frequently uses the term when we discuss recreation 
opportunities that are manageable and maintainable; however, the 
definition of sustainable recreation in the draft rule introduces new 
factors:
    Sustainable Recreation--The set of recreational opportunities, uses 
and access that, individually and combined, are ecologically, 
economically, and socially sustainable, allowing the responsible 
official to offer recreation opportunities now and into the future.
    What does ``socially sustainable'' mean? We are confident that the 
courts will have to decide if this is left in the final rule. What is 
socially sustainable to one interest may not be to another.
    Other terms like ``aesthetic values,'' ``spiritual, educational, 
and cultural sustenance,'' and ``spatial mosaic,'' among many others, 
are undefined and perhaps, undefinable in the context of regulation. 
After decades of litigation and several different attempts at 
developing a workable planning rule the Forest Service should focus on 
producing a rule that is clear and relies on long-standing and defined 
terms, like those found in the Multiple Use Sustained Yield Act, not 
creating vague new terminology that will almost certainly result in 
anti-access advocates asking courts to limit recreation based on their 
interpretation of these terms.
    Another factor of the proposed rule that will make it costly and 
burdensome is its reliance on ``best available science.'' While sound 
science certainly should have a role in planning activities we are 
concerned about what constitutes ``best'' science and who gets to make 
that determination. There is growing recognition that expending 
resources to determine what is the ``best available science'' will be 
not only time and resource consuming, but unnecessary. Again, it will 
almost inevitably be brought to the courts to decide what constitutes 
the ``best available science.''
    The last specific concern with the draft I will mention is the 
inclusion of the ``viable population'' provisions. The Forest Service 
itself acknowledges in the summary of the draft that similar provisions 
in the 1982 rule, ``at times proved to be unattainable because of 
factors outside the control of the agency.'' These factors still 
exist--species ranging on and off of Forest lands, activities outside 
the plan area, failure of the species to occupy suitable habitat, 
climate change--only the draft rule would expand the current provisions 
to include invertebrate as well as vertebrate species. The ``viable 
species'' provisions of the 1982 rule are frequently used as the basis 
for litigation and the draft rule expands upon them instead of 
substantially revising or eliminating them all together.
    I would be remiss if I didn't take the opportunity to encourage the 
Subcommittee to urge the Forest Service to extend the comment period, 
which is set to end on May 16. The draft rule is extremely complex and 
it is difficult to fully digest in any amount of time, and May 16th is 
fast approaching. The Forest Service has been trying to produce a 
workable rule for nearly 30 years, so providing an additional 90 days 
to the public to formulate extensive and well thought out comments 
should not prove to be too much of a delay. In addition, the Forest 
Service asked a third party to conduct an external science review of 
the Draft Environmental Impact Statement (DEIS) that accompanies the 
proposed rule. The review was released to the public on April 21. 
Stakeholders simply need more time to review the draft rule, the DEIS 
and the science review to make informed comments and recommendations.
    I will close by noting that the OHV community, NOHVCC, my family, 
and myself as a rider have a vested interest in the implementation of a 
successful planning rule. We hope the final rule resolves all the 
issues I mentioned above as well as any others that will unnecessarily 
restrict recreation or otherwise make the rule unworkable.
    Thank you.

    The Chairman. Thank you, Mr. Terrell. Thank you to all the 
witnesses on the second panel. We really appreciate you 
bringing your experiences and your expertise on this very 
important issue.
    I yield myself the first 5 minutes here. And if there are 
questions beyond as we go around, it looks like we will have an 
opportunity for a second round.
    Commissioner Bortz, once again, welcome. Good to see you. I 
look forward to seeing you tomorrow as well. I will be in 
Warren tomorrow. Always good to be in Warren.
    My first question is to you, Mr. Bortz, Commissioner, how 
would you encourage more coordination between the local 
development districts and the Forest Service planning team? 
Obviously for you, specifically in the context of the Allegheny 
National Forest, but I think those are lessons that may be 
generalized, obviously, to other forests and LDDs.
    Mr. Bortz. Well, in my documentation I make specific 
reference to the local development districts. They are part of 
the Appalachian Regional Commission which extends from the 
southern tier of New York State, all the way down to Alabama, 
so it represents a considerable amount of real estate, and 
there is no shortage of National Forests found within there.
    The charge of the local development districts is primarily 
planning. It is a federally funded agency which has a direct 
relationship with their representative counties. Warren County 
is a part of the Northwest Commission, I believe we have eight 
counties within that local development district. So they have a 
tremendous repository of local knowledge.
    What I found very interesting, as I went through the last 
planning process, is that here we have a federally funded 
agency which is clearly charged with the local interests and 
local economy, and they weren't at the table with regard to the 
forest plan that went through the Allegheny National Forest. In 
fact, it wasn't until later, through some admonitions of myself 
and other Commissioners, that we were able to get a degree of 
participation within that process. I think we have to take a 
look at those agencies within our respective communities that 
have strong local knowledge that can lend a tremendous benefit 
to the planning process.
    With respect to the National Forests, they are not the only 
ones out there that are doing planning, and they are not the 
only ones out there that have a vested interest with regard to 
what should be happening within our forests, within our 
communities. They can be a very significant player as a forest 
plan unfolds. Unfortunately, while the forest planning rule 
does provide a background and a framework, I don't see a degree 
of specificity that is needed in order to bring a coordinated 
effort of planning together. And as I have stated within my 
White Paper, that too often I see that we have arbitrary 
sentiments that are left over by the local official.
    I was listening to the comments that were put forth by the 
Under Secretary, and what really amazed me is his emphasis on 
the local official. Well, I have to share something with you, 
in Warren County we have had six Forest Supervisors within the 
last 5 or 6 years. I mean, it has been a revolving door. So how 
do you establish, how do you bring a Forest Supervisor up to 
speed with regard to local issues--if there is a true and 
sincere effort on behalf of the National Forest to understand 
those issues--when you form a relationship, you are 
transferring information and they are out the door. So it 
presents a tremendous challenge.
    I suppose this is a way to get around to, when you make a 
specific reference to local development districts, we need to 
have some sort of stipulated framework which says this is how 
planning is going to happen at the local level. Right now we 
don't have that.
    The Chairman. Thank you.
    Mr. Guthrie, you mentioned in your written statement the 
requirement to demonstrate that a forest plan will maintain 
viable populations of species. Can you elaborate on your 
concern with this?
    Mr. Guthrie. It is a very open-ended statement. As we 
discussed earlier with Mr. Sherman's testimony, he wants to 
include invertebrates into that monitoring and assessment, 
which is a whole panoply of species that really is opening, I 
feel, the Forest Service up to further litigation, and it is 
just too open-ended of a statement. Viable, what is viable? And 
what is a sustainable population? Those are open to quite a bit 
of scientific interpretation, and I think just much too 
ambiguous for a proposed rule.
    The Chairman. Would you agree that because of the ambiguity 
with the term, it is just very apparent to me that is kind of 
ripe for a lawsuit as well. When you are not specific, when you 
allow that kind of flexibility for interpretation, it doesn't 
seem like it serves anyone well.
    Mr. Guthrie. Right, right. Those words jumped off the page 
at me, as did the ones that insisted on more assessment and 
monitoring and the role of science. We have so much of that 
under the current rule that we have paralysis by analysis. And 
we are not getting past that to get any real work done on the 
forest. There are just hundreds and thousands of people 
depending on that to happen, and it is just simply not 
happening. And there are different reasons through the 
different regions of the country, but the bottom line is that 
timber is not being produced, it is not being made available to 
our industry and to the public that needs it. And as a 
consequence, we are not only having to import wood from other 
countries, but we are exporting that demand to those countries 
that are least capable of sustaining good ecological practices. 
South America is a perfect example.
    The Chairman. Thank you, sir. My time has expired.
    I yield to the Ranking Member, Mr. Holden.
    Mr. Holden. Thank you, Mr. Chairman.
    Mr. Guthrie, I assume from your comments that you would 
rather have a new rule as opposed to operating under the 1982 
provisions; you would just like changes to the proposed rule?
    Mr. Guthrie. I honestly don't believe the 1982 rule is a 
viable alternative with the pressure to see something new 
happen. I certainly think that the terms of the 1982 rule that 
try to bring forth an emphasis on ASQ should be brought into 
this rule and not be over-dominated by the monitoring and 
assessment of ecological factors.
    And the 1982 rule is not being implemented today. That is 
one of the biggest problems we have. In fact, I wasn't going to 
bring this issue up, but the Forest Service has had an audit 
for FSC, Forest Stewardship Council, and they couldn't pass the 
audit because they have failed to implement their current plan. 
That is just not acceptable under the FSC rules.
    Mr. Holden. I wonder how our other three panelists feel 
about the 1982 provisions as opposed to the new proposal and 
what changes--Mr. Terrell, you already mentioned some of the 
changes you would make, but anyone else have any comments on 
the 1982 provisions versus the new proposal, and what changes 
would you like to see?
    Mr. Shannon. Thank you. I do understand that under the 
current rule it can take years and years and years to get a 
plan simply amended, and we can't continue to conduct business 
that way. That has to change. So it is time for a new rule, in 
my opinion. And I hope the Under Secretary is correct that it 
will shrink down the amount of time required to write a new 
rule or amend a rule.
    Mr. Holden. Commissioner Bortz, my father was a County 
Commissioner for 16 years, so I know the work that you do.
    Mr. Bortz. Yes. It is all over the place, you bet.
    If I could add something to that, and I would like to 
address, in brief, the allowable sale quantity. And it seems as 
if there may be an emphasis moving off of the annual allowable 
sale quantity and looking more towards a lifetime approach with 
regard to that plan. The forest plans last practically 10 to 15 
years. A great deal of science goes into what should be the 
annual vegetative management plan, the allowable sale quantity.
    Oftentimes, what we see is we are looking at this thing on 
an annual basis, so if you have a 55 million board feet 
allocation, which I believe is the current, in the 2007 plan of 
the Allegheny National Forest, we have 54 million board feet as 
an ASQ. If you come up short that year to, like I see a 20 
million board feet harvest, where does that other 30 to 34 
million board feet go? Are we banking that? Are we going to 
say, okay, next year we should harvest 80 million board feet? 
This is the type of thing, I think, needs to be looked at.
    Again, when you start taking a look at an ASQ, the impact 
it can have on the ecology of the forest. And while we do talk 
about jobs--and no one is a stronger advocate on economic 
development jobs--I want to take a look at this thing and spin 
it on its ear with regard to what is healthy for the forest. We 
have forest plans that are being submitted to our communities 
saying, ``Hey, if 54 million board feet is healthy for the 
forest, that is what we need to sustain good forest health.'' 
And when we are harvesting 15, 20, 25 million board feet and 
effectively letting half of our allowable sale quantity rot, it 
has a tremendous impact with regard to sustainability of that 
forest. And that is to say, if we just implement the plan as 
submitted, we could have a tremendous impact with regard to our 
communities.
    So, we have to take a look at the allowable sale quantity 
on the life of the plan as opposed to just an annual basis, for 
one.
    And the second thing, too, I don't think enough emphasis 
has been put on the current rules relative to local government 
involvement. The local governments are the repositories for 
these forests. And broad-sweeping decisions can be made in a 
disconnected fashion at the national and regional level, which 
can have serious consequences to those of us at the local, 
municipal, school district level.
    Again, something should be implemented within the sections 
of the rule plan to encourage, in a very definitive way, how 
involvement should be at the local level and not just give a 
cursory service.
    I have to take some exception to the comments that I heard 
earlier relative to the Forest Service saying that they are 
involved with municipalities and so forth. It has not been my 
experience nor the experience of a number of municipal 
officials that this has taken place on any sincere level. We 
are in the same room, we are talking about subject matter, but 
decisions are being made, in my mind, that are completely out 
of the step with the framework of what is happening, what needs 
to happen at the local level. That needs to be addressed.
    And if I could just say one final thing, and that is with 
regard to personal property rights; you heard some things said 
today relative to the activities with the oil and gas activity. 
Ninety-three percent of the holdings within the ANF at least 
are--the subsurface holdings in the ANF are owned by others. I 
don't think this is altogether too dissimilar with other 
National Forests. They represent a tremendous resource to our 
communities. Imposing surface analysis onto subsurface holders 
basically shuts down industries, and we have seen that within 
Warren County and the counties of the Allegheny National 
Forest. Some provision has to be made that, where analysis is 
being considered, that it should have a stopgap measure 
implemented that would prevent that analysis from moving 
forward if it would adversely intrude itself onto subsurface 
holders or the private property rights of others.
    Mr. Holden. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. And I now recognize 
the gentleman from Wisconsin, Mr. Ribble, for 5 minutes.
    Mr. Ribble. Thank you very much, Mr. Chairman.
    I have a bunch of questions, so maybe if there is time for 
a second round, that would be great. But particularly I will 
start with Mr. Guthrie.
    I have heard a lot today about--and heard from you and 
members of this panel--that the rule could be improved. What 
specifically would you do to improve the proposed rule?
    Mr. Guthrie. I would introduce specific language that would 
force the Forest Service to follow their ASQ that is in the 
current plan and in future plans. That is our best tool for 
getting the forest properly managed. Harvesting is a tool we 
have to have in place, and the ASQ is the measure of that tool. 
When we have this high a rate of mortality--almost 50 percent 
in the Chequamegon-Nicolet in Wisconsin--we are out of balance. 
That is an unhealthy forest. A good managed, healthy forest 
should have in the neighborhood of 10 to 15 percent mortality, 
and we are almost at 50 percent. So we are way out of balance 
in that area.
    So the ASQ needs to be followed initially. And year after 
year, as that performance has improved, you will see that 
mortality go down. Right now on the Chequamegon-Nicolet there 
is 131 million foot ASQ and they are harvesting 72. If we could 
implement that 131, within 4 or 5 years you could easily see 
that number ratchet up into the 200s just by improved forest 
health.
    Mr. Ribble. Is that the primary benefit of getting us back 
in balance?
    Mr. Guthrie. That would be the initial benefit because you 
would see increased timber revenue to the Forest Service and to 
the U.S. Treasury. When I first started in this career, the 
U.S. Forest Service did actually return a profit to the U.S. 
Treasury, and it has been a long time since that has happened. 
If we could even get back on these current allowable cuts, we 
would be profitable. So that would be step one.
    And the benefits that come out of that are really the most 
important step two, is then, once you start having this flow of 
value-added products from the forest--veneer logs and saw logs 
and high-value timber--you are going to see the industry 
respond. The Congressman from Colorado this morning stated his 
wafer board plant in Montrose is under receivership. Well, that 
mill could be brought back if we started harvesting our 
allowable cuts. And all the infrastructure that goes with those 
mills would come back, and that adds thousands upon thousands 
of jobs.
    I didn't mention in my testimony earlier, but last evening 
I was talking with our State Forester, Paul DeLong, and he had 
some new figures that just came out of our Wisconsin County 
forest system on some of their productivity and value. They are 
currently harvesting, on Wisconsin's county forest system, 
$27.5 million a year in timber revenue. It is creating 16,000 
jobs and $4.6 billion in shipments of products. So now do the 
math on the Chequamegon-Nicolet, 60 million feet, that would 
translate to about at least $18 million. So \2/3\ of this 
amount from the county forest, that would yield approximately 
11,000 jobs and probably $3 billion in shipments. That could be 
achieved almost overnight.
    We have still have, fortunately, in Wisconsin 
infrastructure to produce timber and the mills to process it, 
both the paper and hardwood saw logs and softwood. Wisconsin is 
probably one of the most well-rounded states in the country in 
that regard.
    Mr. Ribble. Thanks for that.
    Mr. Bortz, how would that economic impact affect a county? 
We talked about kind of on the big national scale, but what 
would be the impact on a county if you could do something like 
that?
    Mr. Bortz. It would be significant, as I take a look at the 
allowable sale quantity and how that would translate down to 
the economic backdrop of my county. Again, job creation is 
taking place. A healthy forest is a desirable forest to see, so 
I would imagine that you would see some increases in tourism, 
although I don't have any specific data to substantiate that.
    But what would happen in a very real way? I appreciate the 
analysis that I am hearing from Mr. Guthrie on that as far as 
the economic impact and how it would trickle down through our 
community. It would be significant. It would help my 
municipalities, it would help my school districts specifically. 
Again, we have some employment issues within my county; it 
would certainly have a tremendous benefit with that.
    Mr. Ribble. Thank you very much.
    Mr. Chairman, I will yield back. If I get a chance later, I 
would like to ask Mr. Terrell a couple of questions.
    The Chairman. I am sure you will get that opportunity at 
this point.
    I now recognize the gentleman from Florida, Mr. 
Southerland, for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. I am encouraged 
by your very simple, easy-to-understand approach to managing 
our natural resources. This city could learn much from you. It 
amazes me how we have within our ability the ability to solve 
so many of the challenges we face, both at a local, state and 
Federal level, but we seem to be going around the world just to 
get across the street. And so right now, when the American 
people need the practice of common sense more than perhaps any 
time in my lifetime, we seem to be evading the common sense 
that I have heard you express just in the few minutes that I 
have sat here.
    Let me ask you, Mr. Bortz, I am trying to get a feel of 
your county because I certainly have some counties in my 
district that seem to be similar to yours. We have National 
Forests in our district. I am assuming you have a National 
Forest in your county.
    Mr. Bortz. Correct.
    Mr. Southerland. What is the percentage of that, as far as 
land mass?
    Mr. Bortz. Approximately 26 percent of the land mass within 
Warren County is owned by the National Forest, the Federal 
Government. I think it compromises somewhere in the 
neighborhood of about 140,000 acres. The National Forest 
itself, the ANF, would be about 535,000 acres, I believe.
    Mr. Southerland. So if I could, in understanding your 
county, what is your unemployment rate there right now?
    Mr. Bortz. We are hovering somewhere around eight percent.
    Mr. Southerland. Okay. But it sounds to me that you believe 
that if the Federal Government is going to have lands in your 
county, that obviously they have a responsibility. You haven't 
made that statement, but I think that is your sentiment.
    Mr. Bortz. It is my holding that anyone, regardless of the 
owner, if you have an asset, you should be responsible using 
it, Federal Government, private citizen.
    Mr. Southerland. You pay your civic rent. You give back.
    Mr. Bortz. Correct.
    Mr. Southerland. And it sounds to me, in Mr. Guthrie's 
testimony, that the Federal Government is perhaps failing in 
their responsibility to give back.
    Mr. Bortz. I don't think that is too strong of a statement. 
I would agree with you.
    Mr. Southerland. And it doesn't sound like you are wanting 
something for free, you are just wanting the ability to work 
hard, to be honest, and for your people in your counties and 
your cities to have something to show for the forest that they 
are ownership of. It is their resource. Because if they have 26 
percent of the land in your county, you have to have something 
to replace that, because if it is not bringing something to the 
table, then it is just taking from the table and it is not 
putting groceries on it.
    Mr. Bortz. In my White Paper I talk a little bit about 
that. If you have something that is 140,000 acres within your 
community that has the direct and indirect opportunity to 
create both great ecological activity as well as economic 
activity, as an elected official you are going to be concerned 
about: you want to see that thing happen and you want to see it 
happen well.
    What is it giving back to my community? There is a presence 
there. People do enjoy the forest. There are some people that 
are making a living. But is it living up to its potential? Not 
even close. We heard testimony by Mr. Guthrie today how you 
have private forests that are being managed that are just out-
producing the National Forests considerably.
    Mr. Southerland. I know we have a challenge down in our 
area of understanding the difference between a park and a 
National Forest. One has somewhat of a preservationist mind-
set, the other, in order to do the work of the people and be 
truly responsible requires a conservationist mind-set.
    There are parts of our National Forest that are designated 
wilderness areas, basically making a National Forest a park. 
Because I am not familiar with your area, are you facing the 
same issue?
    Mr. Bortz. We are facing that issue to a degree. We have 
some people that are strongly advocating for study areas of the 
wilderness to be imposed upon areas of the forest. And what 
concerns me greatly is that if a study area, if a wilderness 
area is considered for designation, it goes into administrative 
consideration and in fact is a wilderness just by 
administrative edict. So without the formal designation it 
becomes wilderness; it goes out of production and a whole host 
of issues then are imposed upon it. So, yes, we do have that 
concern.
    Mr. Southerland. All right. Thank you, I yield back.
    The Chairman. I thank the gentleman.
    The issue of wilderness is kind of an interesting one--and 
I certainly agree with the Commissioner's perspectives. 
Frankly, wilderness areas, when they are designated, should 
come frankly as Acts of Congress within those Federal lands. 
And yet, using backdoor administrative processes, we 
essentially impose wilderness designation on areas. We take it 
out of production, which was the original purpose of those 
lands, and frankly, based on my observations, we create 
unhealthy forests. It really lends itself, I believe--now I am 
going to rely on Mr. Guthrie and Mr. Shannon's expertise here. 
My next question really ties nicely into that in terms of the 
health of the forest.
    You gentlemen, with your expertise, do you believe that the 
proposed rule presents a framework for adequately dealing with 
potential invasive species threats, and also a question of 
wildfires?
    Mr. Guthrie. Currently, the invasive species threats in 
Wisconsin are being addressed by the state DNR. So that would 
be my experience on the Wisconsin State level. As far as across 
the country, each area, each region has different species of 
concern.
    In the experience of Wisconsin and Michigan, I know their 
state people are quite adept at staying on top of those. I feel 
that the Forest Service does need to have a landscape level 
idea of what is going on with those issues, but I don't think 
it should take the precedent that they are trying to implement 
with this plan.
    The three-legged stool of economy, social issues and 
ecology, the ecology leg is a lot longer on their stool and it 
is just not going to be supportable. They are going to be open 
for lawsuits on all of these invasive issues, on the 
sustainability of all of these invertebrate species. We already 
have a lot of that in the current plan. We have dealt with 
timber wolf in Wisconsin, which is now out of control even to 
the agreement of the Fish and Wildlife Service that has tried 
to get them delisted three times. And we are hopeful of getting 
that done this year.
    So these types of issues, once they are in the rule and 
have the force of law, are very difficult to overcome. And with 
all due respect to Mr. Sherman this morning, I think he 
understated just how critical that can be. And I would like to 
be optimistic and think that we are going to put this chapter 
of heavy litigation behind us in regard to our forest plan, but 
20 years of experience tells me otherwise.
    The Chairman. Thank you.
    Mr. Shannon, any thought on management of invasive species, 
wildfires within the current proposed rule?
    Mr. Shannon. Yes, sir. And those issues that you identify 
require rapid response, not a whole long period of analysis. 
And sir, I am not sure if the proposed planning rule provides 
that flexibility so that the professionals on the ground can 
rapidly respond to invasive species. I think for fires people 
get that, although in wilderness areas that is another issue. 
But for invasives, I am not sure if the Forest Service has that 
ability to respond rapidly.
    So I guess in response, I hope for the Forest Service 
officials who I guess are still sitting behind us, perhaps they 
ought to make note of that and be sure they provide that 
flexibility for quick action when invasives are identified.
    Thank you, sir.
    The Chairman. Thank you. And I certainly believe the Forest 
Service needs the resources to do that. It is one of the 
reasons I provided, as a witness, testimony at a recent 
Interior Appropriations Subcommittee hearing in terms of the 
importance of proper resources for the Forest Service to deal 
with invasive species, certainly also in forest research. I 
think they are incredible tools in terms of managing healthy 
forests.
    Mr. Terrell, do you believe that the planning rule treats 
motorized recreation fairly?
    Mr. Terrell. I don't believe so. And one of the things that 
I find objectionable in the proposed rule is I believe that it 
relegates recreation in general, not only motorized recreation, 
to minor league status.
    It is getting to the point where, if you go back and look 
at the Multiple-Use Sustained-Yield Act, recreation was stated 
as a primary purpose for management of the forests. And, with 
each succession of rules that comes out, the importance of 
recreation has been minimized and minimized and minimized. And 
I think that this proposed rule takes it one step farther. And 
if we use the analogy that was used earlier about a three-
legged stool, recreation has had their leg amputated.
    And we hear a lot of discussion about the economy and jobs. 
A lot of it is lip service, and it does not accept or recognize 
the significant positive impact of recreation on the economy. 
We can provide numerous reputable studies that have been done 
across the country that indicate the number of jobs that have 
been created because of off-highway vehicle recreation and the 
number of dollars that have gone into the local economy, the 
number of dollars that have gone into local sales and use taxes 
that go directly into the local community or directly into that 
state.
    And I have to give you a disclaimer: I am not an attorney, 
and I don't claim to be one. But I have worked with a lot of 
organizations across the United States that have been trying to 
get trail plans approved and have been just hung up by 
litigation.
    I see so many buzz words that are in this planning 
document, that the one thing that you are going to create a 
positive economic impact about, and that is to the attorneys 
out there. Because while there is a lot wrong with the present 
rule and the present rules needs to be changed, I am not 
willing to say that what is being presented as the new rule 
makes things better. And, in fact, I think it is going to make 
it worse.
    The Chairman. Thank you, sir.
    And, by the way, not being an attorney in this town adds to 
your credibility.
    I yield to Mr. Ribble for an additional 5 minutes of 
questions.
    Mr. Ribble. Thank you, Mr. Chairman.
    Mr. Terrell, thanks for being here. I would invite you to 
come up to Wisconsin's Northwoods. It is an especially 
beautiful place in the middle of winter. It can be a little bit 
cold. I know you have spent some time in Florida, but it might 
be good for you.
    But I do have a question. If you were going to improve the 
law, from your industry's perspective and from off-road use--
not the law--the rule that is proposed, what specific 
improvements would you put in it?
    Mr. Terrell. Well, I think that there needs to be a much 
stronger statement about the importance of recreation in the 
proposed rule. I don't see that there. I think, as I say, it 
gets some mention, but it is not strong enough. And I think 
that that is something that needs to be rectified before that 
rule would be adopted. I think it is extremely important. I 
think that recreation needs to be recognized as an economic 
generator, and that it is extremely important to the 
communities involved. So that would be one of the things.
    I also feel that, as I have indicated in the testimony, 
that there are an awful lot of what I feel are ill-defined 
terms stated in that rule, that there is going to be so much 
litigation over it, the Forest Service will continue to be just 
tied up in litigation.
    And the other thing that the threat of litigation does, it 
really puts a damper on the local authority, meaning the local 
ranger district or the Forest Supervisor, because they are 
making a lot of decisions and those decisions are being driven 
by, am I going to get sued over this thing? And I don't know 
how to solve that problem, but the language that I see in 
there, and the terms that I see in there, now give me pause.
    Mr. Ribble. Yes. Well, thank you.
    Mr. Shannon, could you talk to the Committee a little bit 
about the role of tourism, like what Mr. Terrell is speaking 
of, the use of off-road vehicles, snowmobiles, I would assume 
even jet-skis and things like that in the lakes, how that 
impacts the states and how you might see the rule improved as 
it relates to that?
    Mr. Shannon. And I will certainly defer to people in the 
outdoor recreation business, but I will tell you what I have 
seen in Arkansas, on the Ouachita National Forest, especially 
people from Texas, seem to like to come to the forests of 
Arkansas and bring their off-road vehicles. And I know because 
I have seen this, there are Arkansans who have invested in 
small motels that are constructed on public highways just 
outside the boundaries of the National Forests. They are 
located so that these visitors to Arkansas can ride their four-
wheelers across this little two-lane road to the trailhead on 
the Ouachita National Forest and enjoy a day of off-road 
vehicle use.
    And it is just a tremendous opportunity and really 
excellent use of the National Forest. I can't tell you what the 
dollar value is, but I do know it is jobs and it is private 
investment at the border of the National Forests. So there is 
certainly a balance of uses. And sometimes that creates some 
stress, of course. But there is absolutely room for a really 
robust timber program and an outdoor recreation program. They 
can work together.
    Mr. Ribble. Well, thank you very much.
    Mr. Guthrie, do you agree?
    Mr. Guthrie. I agree. I see a lot of recreational use on 
the Chequamegon-Nicolet in Wisconsin and the Ottawa National 
Forest up in the Upper Peninsula of Michigan and, also, quite a 
bit of other trail use: snowmobiling in the wintertime, 
horseback riding, a lot of just good hiking.
    And that is an important part of the economy. Tourism in 
Wisconsin would be the number two industry to forest products, 
in terms of northern Wisconsin. I think that needs to be part 
of this rule, that that needs to be respected. And there is 
certainly a balance there that needs to be maintained.
    And I guess, in speaking to the overall management of the 
forest, we are not advocating any kind of a backseat to 
sustainability or good stewardship of the land and the forest. 
And, again, in my experience, that can be accomplished at the 
same time as good, healthy maintenance of the timber harvest.
    Mr. Ribble. Okay. Thank you very much.
    And I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    And I recognize Mr. Southerland, from Florida, for an 
additional 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman.
    I know that the Chairman was making comments about the 
wilderness, about how when an area in the National Forest is 
designated a wilderness area, that obviously that is done 
without Congressional oversight or Congressional authority.
    How significant in the forests that you have alluded to 
today, how--are they quick on the trigger?
    And in light of your stool example, the three-legged stool, 
that we have to make sure that all three of those components 
work together, are you concerned at all that the decision that 
is made in designation of the wilderness determination, 
implementation, that all three of those areas are taken into 
consideration? And, if not, that that ability should be taken 
away and only done through Congressional oversight?
    Mr. Guthrie. That is an excellent question. Thank you.
    On the Chequamegon-Nicolet that is our Wisconsin forest 
that I am most familiar with, we currently have 446,000 acres 
of designated wilderness. The Nicolet is 1.5 million acres, of 
which 1.3 million is productive timberland; the other 200,000 
acres are wetlands. So, of that 1.3 million of usable 
timberland, fully \1/3\ is designated wilderness. And those 
forest areas are just falling over.
    A lot of this was designated back in the 1970s. And, at the 
time, they were recreational-type areas, like Blackjack Springs 
Wilderness Area up by Eagle River was just a pristine, 
beautiful area with a spring in it. That is fine. That type of 
area should be protected. But do we need hundreds of thousands 
of acres around it and take it totally out of timber 
production? That is where, as you stated earlier, we have kind 
of lost our common sense. These things can be protected and 
managed very appropriately without negating the opportunity to 
harvest timber and manage timber and keep the forest healthy.
    Nature is a brutal manager sometimes. When you get these 
pockets of infestation or you get these western fires, you are 
devastating literally millions of acres at a time that could 
have been prevented by proper harvesting. We can mimic almost 
everything in nature by proper harvesting when we want to. That 
is what we need to give ourselves more ability to do.
    So, to answer your question, yes, I would like to see 
Congressional oversight on that type of designation.
    Mr. Southerland. You made another interesting point when 
you talked about fires. You know, it is my understanding that, 
after a fire--walk me through, if you would, your opinion, as I 
consider you an expert in your field. Obviously, when a fire 
occurs, there certainly is an opportunity to maximize the 
effects of that fire by being able to go in and clean up 
properly and harvest. Grade the Service on their application of 
common sense when it comes to going in after a fire.
    Mr. Guthrie. Well, I don't have personal experience with 
the western fires, being from Wisconsin. We are kind of known 
as the asbestos forest. But I do know what goes on out there 
from our state DNR who lends a hand out there with our 
personnel when they need it. And what is happening out West is 
I would grade a D to F in terms of the quickness of response.
    Again, getting back to this issue of invasive species, it 
is the same issue. You have these vectors on the ground that 
are causing a problem in forest health, and if you don't jump 
on them quickly, they multiply quickly. And you are getting 
that pine beetle out West just infesting millions of acres, 
killing that timber, and it is a dynamite box sitting there 
waiting for a lightning strike to set it off. And when you 
don't harvest that dead and dying timber, you are just 
promoting more and more of that opportunity. And that is 
happening in similar areas in Region 9, the eastern forest, 
with insect and storm damage problems.
    You know, a few years ago, we passed that Healthy Forest 
Initiative so the Forest Service would have the ability for a 
quick response, and, quite frankly, they are not using it very 
effectively.
    Mr. Southerland. Yes.
    Mr. Chairman, I just want to commend you and your wisdom in 
having this hearing today.
    I am a new Member, and I have found your testimony, as well 
as the testimony of our first panel, to really shed light on 
how the American people are not getting the maximization of the 
resources that they own, that they should have access to. And I 
just would encourage us to really try to have more on this same 
topic, because I think that this is certainly an area where the 
action of Congress can go a long way to be a good steward of 
the American people's resources.
    And so I commend you, Mr. Chairman, and I yield back.
    The Chairman. I thank the gentleman.
    Now, before we adjourn, I would invite the Ranking Member 
to make any closing remarks he has.
    Mr. Holden. That is okay. Thank you.
    The Chairman. Okay. I thank the Ranking Member. He is a 
good partner in terms of serving what I think is a very good 
Subcommittee, committed to the areas of jurisdiction that we 
have.
    I want to thank everybody for your participation, Members 
and, most especially, the witnesses who came here on your own 
time and expense and sacrifice. We very, very much appreciate 
it.
    I thought it was a very good hearing. Both the testimony 
and the line of questions and the response to questions were 
very helpful to kind of shed light. And, one of the most 
powerful, influential resources, frankly, in Washington, D.C., 
is information, it is the facts. And I think we received lots 
of that today.
    You know, we are here talking about forest management, the 
forest management plan, but, as somebody, very appropriately 
said, ``We are talking about jobs, because our National Forests 
were set up to provide sustainable resources for a strong 
economy in this country. And that is all about jobs.''
    It is an important issue, I think you would agree, worthy 
of at least one additional hearing, so we will pursue that.
    And I want to thank everyone for their attendance and their 
participation.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Conservation, Energy, 
and Forestry is adjourned.
    [Whereupon, at 12:19 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
 Submitted Letter by Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
May 11, 2011

Hon. Thomas J. Vilsack,
Secretary,
U.S. Department of Agriculture,
Washington, D.C.

    Dear Secretary Vilsack:

    The House Agriculture Subcommittee on Conservation, Energy, and 
Forestry held a hearing Thursday, May 5th to review the U.S. Forest 
Service's proposed planning rule, currently in a public comment period. 
During the course of this hearing, Members of the Subcommittee heard 
concerns from a diverse group of stakeholders regarding the content of 
the rule and its implications on silvicultural and other activities on 
Forest Service lands. In light of these numerous concerns, we 
respectfully request your extension of the public comment period by an 
additional 90 days.
    At the hearing, witnesses testified about their concerns that this 
rule does not do enough to promote or assure active management of our 
National Forests. Timber harvesting, as you know, is essential for 
providing jobs in these rural areas and is a key component of keeping 
our forests healthy because it helps to mitigate natural threats, such 
as wildfires and invasive species. We were also concerned by testimony 
that this rule may negatively affect rural communities who rely on 
National Forests for timber, mineral production, and recreational 
purposes to help support their economies. For your convenience and 
review, we have also included copies of the witnesses' testimonies.
    We are aware that a similar request to extend the current comment 
period by a group of 65 multiple use organizations was recently denied 
by U.S. Forest Service Chief Tidwell just last week. In his response, 
Chief Tidwell cited the extensive work by the Forest Service at the 
beginning of the process which warrants the 90 day period. While we 
appreciate the Forest Service's outreach on the proposed rule and Under 
Secretary Sherman's participation in the hearing, we do not believe 
that 90 days is adequate for all interested groups to have enough time 
to properly analyze the proposed language and evaluate its implications 
on our 155 National Forests and 20 grasslands.
    Therefore, we respectfully request an additional 90 days of the 
comment period, to provide for optimal input, in order to ensure a 
viable planning rule for years to come. We appreciate your 
consideration and look forward to your response.
            Sincerely,



            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            





Hon. Glenn Thompson,                 Hon. Tim Holden,
Chairman,                            Ranking Minority Member,
Subcommittee on Conservation,        Subcommittee on Conservation,
 Energy, and Forestry,                Energy, and Forestry,
House Committee on Agriculture;      House Committee on Agriculture;



                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 Hon. Bob Goodlatte,                  Hon. Kurt Schrader,
Member of Congress;                  Member of Congress;

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 Hon. Marlin A. Stutzman,             Hon. William L. Owens,
Member of Congress;                  Member of Congress;
                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 Hon. Bob Gibbs,                      Hon. Jim Costa,
Member of Congress;                  Member of Congress;

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 Hon. Stephen Lee Fincher,            Hon. Steve Southerland II,
Member of Congress;                  Member of Congress.

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 Hon. Reid J. Ribble,
Member of Congress;CC:Hon. Harris Sherman, Under Secretary for Natural Resources and
 Environment;Tom Tidwell, Chief, U.S. Forest Service.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Harris Sherman, Under Secretary for Natural 
        Resources and Environment, U.S. Department of Agriculture *
---------------------------------------------------------------------------
    * Note from respondent: The Department received nearly 300,000 
comments on the Proposed National Forest Planning Rule, and is 
carefully considering those comments at this time. The Department has 
not yet reached a decision on the content of the final rule, and so 
does not yet have answers about how the final rule will address the 
questions presented. The questions below and related comments are being 
given serious consideration in the development of the final rule and 
the FEIS.
    The responses below relate to the proposed rule published in the 
Federal Register on February 14, 2011 (76 FR 8480), and the DEIS for 
the proposed rule.
---------------------------------------------------------------------------
Questions Submitted by Hon. Gregorio Kilili Camacho Sablan, a Delegate 
        in Congress from Northern Mariana Islands
Wildlife
    Question 1. While on its face the proposed rule seems promising, 
statements of lofty ambition in the document do not translate into 
meaningful and binding standards. As written, the draft rule would 
significantly impair wildlife conservation on National Forests by 
replacing the longstanding approach to wildlife conservation found in 
current regulations with discretionary measures that depart from 
scientific recommendations and render species protection largely 
optional. Moreover, when agency officials summarize the proposal, they 
sometimes confuse their intentions with what is actually required by 
the wording in the draft.
    Under the current planning rule, the Forest Service is required to 
manage habitat to maintain viable populations of native wildlife in the 
planning area. For most species on the National Forests, the proposed 
rule replaces this clear requirement with vague instructions to manage 
for ecosystem health. How will this ensure that the Forest Service is 
able to ``keep common species common'' and maintain viable populations 
of all wildlife?
    Answer. The proposed rule presents a more holistic, consistent, and 
achievable approach to maintaining native fish, wildlife, and plant 
species on national forests and grasslands than provided under the 1982 
rule, and incorporates the considerable advances in scientific 
understanding that have occurred over the past three decades related to 
biological diversity concepts and principles, as well as in 
conservation design and practice.
    The proposed rule incorporates a coarse-filter, fine-filter 
approach to managing ecological conditions to support the diversity of 
plant and animal communities and the persistence of native species in 
the plan area. Requiring plan components for ecosystem health and 
resilience, coupled with requirements for specific species, is intended 
to provide the habitat and other ecological conditions needed to keep 
common native species common, contribute to the recovery of threatened 
and endangered species, conserve candidate species, and maintain viable 
population species of conservation concern. At the same time, the 
proposed rule recognizes inherent limits to the agency's ability to 
ensure results, and provides direction for those circumstances, which 
would arise under the current rule as well.

    Question 2. The proposed rule limits the viability requirement only 
to ``species of conservation concern,'' and then lets local forest 
officials decide which those are. It also allows the agency to absolve 
itself from the responsibility for protecting the species it does 
identify by claiming impossibility. Yet at the same time, the Forest 
Service claims the proposed rule gives ``equal or greater levels of 
protection'' than the existing rule. How can the Forest Service assert 
that unlimited discretion to exempt species from protection results in 
``equal or greater protections''?
    Answer. The proposed planning rule does not provide for unlimited 
discretion. The viability of the majority of species would be 
maintained by the proposed rule through the coarse filter of 
maintaining and restoring ecological health and resilience, including 
structure, function, composition and connectivity. For those species, 
other than federally listed threatened or endangered species or 
candidate species, for which there is evidence demonstrating 
significant concern about their capability to persist over the long-
term in the plan area (species of conservation concern), the proposed 
rule would require that the plan components provide for the maintenance 
or restoration of ecological conditions in the plan area to maintain 
viable populations of species of conservation concern within the plan 
area. But, the proposed rule realistically recognizes that there may be 
circumstances beyond the agency's authority and control that prevent it 
from maintaining the long-term persistence of some species within the 
plan area. Such circumstances could occur under any rule; this rule 
explicitly acknowledges them. Under the proposed rule, where the Forest 
Service cannot provide ecological conditions to maintain a viable 
population of species of conservation concern within the plan area, the 
agency still has an obligation to include plan components that would 
provide within the plan area ecological conditions that would 
contribute to viability of the species within its range, in 
coordination with other land managers with the ability to influence the 
persistence of that species.

    Question 3. The proposal is extremely vague on how wildlife 
monitoring will be used to inform management. The proposed rule 
requires that each forest provide for viable populations of ``species 
of conservation concern'' selected by the responsible officials, BUT 
the rule doesn't require that those species be monitored. How will the 
public know if the viability standard is being met when species of 
conservation concern aren't monitored? Additionally, what is the role 
of focal species in the monitoring program, and what happens if the 
status of focal species is ``not good''?
    Answer.  219.9 of the proposed planning rule requires plan 
components that incorporate a coarse-filter/fine-filter approach to 
maintaining plant and animal species diversity and persistence in the 
plan area.  219.12 provides for the monitoring of ecological 
conditions, watershed conditions, and focal species (defined as a small 
number of species selected for monitoring whose status is likely to be 
responsive to changes in ecological conditions and effects of 
management) under the proposed rule, which is intended to gauge 
progress under implementation of the plan towards meeting the desired 
conditions, including those ecological conditions to support species of 
conservation concern. Should these monitoring elements show that the 
intended rate of progress is not being met, a need for change in plan 
direction would be considered. Reliable information obtained from 
monitoring would be expected to identify the need to change either a 
plan or management activities in a timelier manner than under the 1982 
planning rule.

    Question 4. The proposal appears to allow the agency to absolve 
itself from the responsibility of protecting all wildlife on the 
National Forests if ``the inherent capability of the land'' prohibits 
it, but this key term is never defined. How can the public be confident 
that this determination won't be used to avoid species protection 
measures when there is no basis for determining the ``inherent 
capability of the land?''
    Answer. The agency is not trying to absolve itself from its 
responsibilities with regard to wildlife protection. The proposed rule 
requires that best available scientific information be used in the 
development of each plan, the basis for decisions must be documented 
and supported, and that decisions cannot be arbitrary and capricious. 
There may be circumstances beyond the agency's authority or control 
that prevent it from maintaining viable populations of some species 
within the plan area. In such cases, the proposed rule would require 
plan components to provide within the plan area ecological conditions 
that would contribute to viability of the species within its range, in 
coordination with other land managers having the ability to influence 
the persistence of that species.
Clear Accountability
    Question 5. Under the current forest rule, the public can hold the 
Forest Service accountable when it fails to uphold the requirements of 
the rule. The proposed rule seems to be much more focused on what the 
Forest Service ``wants to'' or ``intends to'' rather than what the 
American public says it ``must'' do to manage the National Forests. The 
practical result is a sharp curb on public accountability. What are the 
wildlife and water standards in the rule that the public can use to 
hold the agency accountable?
    Answer. There is a great deal of accountability built into the 
proposed rule. The proposed rule includes requirements related to the 
conservation and protection of ecological health and resilience, 
wildlife and water resources, along with the provision of multiple 
uses. These are required plan components in every national forest and 
grassland land management plan, which the agency can be held 
accountable for including.
    The proposed rule also requires that the responsible official use 
the best available scientific information throughout the planning 
process. In addition, the assessment and monitoring requirements in the 
proposed rule require using adaptive management techniques to 
understand conditions and trends before plan revision, and to use 
monitoring data to assess progress towards achieving desired conditions 
and whether there is a need to change the plan based on new 
information.
    The proposed rule requires increased public participation in the 
assessment of plans as well as the revision or amendments of plans. 
Plan creation or revision will require an environmental impact 
statement. Consultation with the U.S. Fish and Wildlife Service and 
National Marine Fisheries will also be provided where appropriate. Plan 
amendments will also require the appropriate level of NEPA analysis and 
ESA consultation. Further public engagement and environmental analysis 
will occur at the project level as plans are implemented.

    Question 6. The Forest Service has said that the rule explains 
``what'' the Forest Service should do with planning on the National 
Forests, but that the ``how to'' will be reserved for the Forest 
Service directive system. As such, it will not be subject to the same 
level of environmental analysis and public participation, and it will 
be easier to change. How can the Service justify leaving fundamental 
aspects of the rule--including criteria for selecting ``species of 
conservation concern''--to be decided without full environmental review 
and public participation?
    Answer. Under the proposed rule, all land management plans, 
including the determination of species of conservation concern for each 
unit, would be subject to full environmental review and public 
participation. In addition, the agency will provide opportunities for 
public review of new directives or changes to existing directives 
related to land management planning.
Best Available Science
    Question 7. The proposed rule requires forest managers to consider 
the best available science, but does not require them to base their 
decisions on it. They are simply required to write a description of the 
science that is available and describe why they decided to go a 
different way. By not requiring managers to base their decisions on 
science, what assurances are there that political pressure won't trump 
sound science and that wildlife, water quality and healthy forests 
won't pay the price as various special interests put pressure on forest 
managers?
    Answer. The objective of this proposed rule is to guide the 
collaborative and science-based development, amendment, and revision of 
land management plans that promote healthy, resilient, diverse, and 
productive National Forests and grasslands.
    The proposed rule requires the use of science as an important 
source of information for decision-making. The appropriate 
interpretation and application of the best available scientific 
information provides the foundation for planning. In addition, the 
agency recognizes that other forms of information, such as local and 
indigenous knowledge, public concerns and values, agency policies, 
results of monitoring and the experience of land managers must also be 
taken into account.

    Question 8. Under the proposed rule, a forest plan could actually 
be wholly inconsistent with the best available science and so long as a 
forest manager documents what science he considered before making his 
decision, it would stand. Is that correct? Should we not at least have 
a standard that ensures that management decisions are not inconsistent 
with science?
    Answer. This proposed rule requires that responsible officials use 
the best available science when designing plan components to provide 
ecological sustainability and contribute to social and economic 
sustainability. The rationale that supports plan decision must be 
documented and must be consistent with law and policy, and decisions 
cannot be arbitrary and capricious.

    Question 9. Even if the best available science finds that a species 
is imperiled, a forest official is not required to recognize the animal 
as a ``species of conservation concern.'' This enables the agency to 
ignore best available science indicating that a species should be 
considered a species of conservation concern. What recourse exists for 
the public when poor decision-making leaves out a species that the best 
available science identifies as a species of conservation concern?
    Answer. The proposed rule requires the responsible official to 
identify a species as being of conservation concern where there is 
evidence demonstrating significant concern about its capability to 
persist in the plan area. We would therefore expect that if the best 
available scientific information indicates a species should be 
identified as a species of conservation concern, the responsible 
official would do so. The identification of the species of conservation 
concern will be subject to public review and comment as part of the 
planning process.
    In the event that any member of the public believed that a species 
not identified as a species of conservation concern should have been so 
identified, the matter can be raised to a higher-level Forest Service 
official for resolution. The proposed rule includes a pre-decisional 
administrative review process called an objection process. This process 
allows interested individuals to voice objections and point out 
potential errors or violations of law, regulations, or agency policy 
prior to approval of a decision. An objection prompts an independent 
administrative review by an official at a level above the deciding 
official and a process for resolution of issues.
A Changing Climate
    Question 10. For the first time, the proposed rule addresses the 
threat of climate change on our National Forests. There are references 
to climate change in the rule's three main components: assessment, plan 
revision, and monitoring. However, all of the language is 
discretionary. There is no mandatory program to analyze the effects of 
climate change or to develop strategies to address those threats. Given 
the profound changes we are already seeing in forest ecosystems due to 
a changing climate, why aren't the requirements for addressing these 
changes more explicit?
    Answer. The proposed rule is based on a planning framework to 
create a responsive and agile planning process that informs integrated 
resource management and allows the Forest Service to adapt to changing 
conditions, including climate change, and improve management based on 
new information and monitoring. There are specific requirements for 
addressing climate change in each phase (assess, revise or amend, and 
monitor) of the planning framework. The agency's implementation of the 
Climate Change Roadmap and Scorecard will also support the requirements 
in the proposed rule.

                                  <all>

</pre></body></html>
